No. 19In the

Supreme Court of the United States

PATRICK SHIN,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Ninth Circuit

PETITION FOR A WRIT OF CERTIORARI

James E. Friedhofer
Counsel of Record
Friedhofer PC
11410 Bracken Fern Cove
San Diego, CA 92131
(858) 693-4400
jfriedhofer@friedhofer.com
Counsel for Petitioner

292855

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED
The federal False Statements statute expressly
applies only to a materially false, fictitious, or fraudulent
statement or entry. The Circuits disagree over the
standard for proof of materiality in federal fraud
prosecutions and disagree as to whether the “demanding”
materiality requirement that necessitated clarification
in Universal Health Servs., Inc. v. United States ex rel.
Escobar, 136 S.Ct. 1989, 1995 (2016) altered how rigorously
that standard must be imposed.
The questions presented are:
1.

Do Escobar’s clarifications apply to the materiality
requirement for False Statements prosecution under
18 U.S.C. § 1001(a)(3)?

2.

Do such clarifications demonstrate “an error of the
most fundamental character” for coram nobis relief
where, prior to a guilty plea, the Government did
not allege that defendant’s false statements had any
ability to influence the actual decisionmaker-recipient
and where post-Escobar case evidence showed those
statements would have had no effect on the actual
decisionmaker?

ii
PARTIES TO THE PROCEEDINGS
Petitioner in this Court, who was Appellant in the
Ninth Circuit, is Patrick Shin. Respondent is the United
States of America, which was Appellee in the court of
appeals.

iii
RELATED CASE STATEMENT
The original criminal case is United States of America
v. Patrick Shin, United States District Court for the
District of Hawaii No. 1:04-cr-00150-SOM, judgment
entered March 9, 2006.
The coram nobis proceeding is Patrick Shin v. United
States of America, United States District Court for the
District of Hawaii No. 1:15-cv-00377-SOM-RLP, judgment
entered on June 29, 2017.
An initial appeal in the coram nobis proceeding,
dismissed as premature, is Patrick Shin v. United States
of America, United States Court of Appeals for the Ninth
Circuit No. 16-17014, dismissal order entered on April 21,
2017.
The operative appeal in the coram nobis proceeding is
Patrick Shin v. United States of America, United States
Court of Appeals for the Ninth Circuit No. 17-16460,
memorandum issued on July 26, 2019, and order of denial
of rehearing of the United States Court of Appeals for the
Ninth Circuit issued on October 3, 2019 (mandate issued
on October 11, 2019).

iv
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDINGS  . . . . . . . . . . . . . . ii
RELATED CASE STATEMENT  . . . . . . . . . . . . . . . .  iii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . . vi
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . vii
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATUTORY PROVISION INVOLVED  . . . . . . . . . . . 1
INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
STATEMENT  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
A. Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
B. Original District Court Proceedings . . . . . . . . . 11
C. Shin’s Coram Nobis Petition and Proceedings  . 13
D. Ninth Circuit Proceedings  . . . . . . . . . . . . . . . . . 18

v
Table of Contents
Page
REASONS FOR GRANTING THE PETITION . . . . 19
I.

The Decision Below Allows This Court
to Resolve Circuit Disagreement as to
W hether Escobar ’s Clarifications on
Materiality Apply to Criminal Cases  . . . . . . . . 20

II. The Decision Below Allows This Court
to Resolve the Question of W hether
Escobar Endorsed a “Reasonable Person”
Materiality Standard  . . . . . . . . . . . . . . . . . . . . . 23
III. The Decision Below Allows This Court to
Resolve Circuit Disagreement as to Whether
a Materiality Allegation is Sufficient If
It Does Not Show that a Decision Would
Have Been Affected by the Violation . . . . . . . . . 30
IV. Facts of This Case Provide a Sufficient
Background for Resolving the Important
Question of Who the “Decisionmaker” is in
Cases Involving the Government . . . . . . . . . . . . 32
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33

vi
TABLE OF APPENDICES
Page
APPENDIX A — MEMORANDUM OF THE
UNITED STATES COURT OF APPEALS
FOR T HE NIN T H CIRCU I T, FILED
JULY 26, 2019  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1a
A PPENDIX B — A MENDED ORDER OF
THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF HAWAII, FILED
JUNE 28, 2017 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5a
APPENDIX C — DENIAL OF REHEARING
OF T H E U N I T ED S TAT E S C OU RT
OF A PPEA LS FOR T H E NIN T H
CIRCUIT, FILED OCTOBER 3, 2019 . . . . . . . . . . 64a

vii
TABLE OF CITED AUTHORITIES
Page
Cases
D’Agostino v. ev3, Inc.,
845 F.3d 1 (1st Cir. 2016)  . . . . . . . . . . . . . . . . . . . . . . 30
Kungys v. United States,
485 U.S. 759 (1988)  . . . . . . . . . . . . . . . . . . . . . . . . 21, 25
U.S v. Betts-Gaston,
860 F.3d 525 (7th Cir. 2017) . . . . . . . . . . . . . . . . . . . . 26
U.S v. Williams,
865 F.3d 1302 (10th Cir. 2017) . . . . . . . . . . . . . . . . . . 27
United States ex rel. Campie v. Gilead Scis., Inc.,
862 F.3d 890 (9th Cir. 2017) . . . . . . . . . . . . . . . . . . . . 31
United States ex rel. Nargol v.
DuPuy Orthopaedics, Inc.,
865 F.3d 29 (1st Cir. 2017)  . . . . . . . . . . . . . . . . . . . . . 30
United States ex rel. Petratos v. Genentech Inc.,
855 F.3d 481 (3d Cir. 2017) . . . . . . . . . . . . . . . . . . . . . 30
United States ex rel. Prather v.
Brookdale Senior Living Communities, Inc.,
892 F.3d 822 (6th Cir. 2018) . . . . . . . . . . . . . . . . . . . . 31
United States ex rel. Rose v. Stephens Institute,
901 F.3d 1124 (9th Cir. 2018) . . . . . . . . . . . . . . . . . . . 28

viii
Cited Authorities
Page
United States v. Allen,
364 F. Supp. 3d 1234 (D. Kansas 2019) . . . . . . . . . . . 29
United States v. Facchini,
832 F.2d 1159 (9th Cir. 1987) . . . . . . . . . . . . . . . .  17, 18
United States v. Green,
698 Fed. Appx. 879 (9th Cir. 2017)  . . . . . . . . . . . . . . 27
United States v. Henderson,
893 F.3d 1338 (11th Cir. 2018)  . . . . . . . . . . . . . . . . . . 31
United States v. Holmes,
406 F.3d 337 (5th Cir. 2005) . . . . . . . . . . . . . . . . . . . . 24
United States v. Lindsey,
850 F.3d 1009 (9th Cir. 2017) . . . . . . . . . . . . . . . passim
United States v. McBane,
433 F.3d 344 (3d. Cir. 2005) . . . . . . . . . . . . . . . . . . . . 24
United States v. Menendez,
291 F. Supp. 3d 606 (D.N.J. 2018) . . . . . . . . . . . . . . . 29
United States v. Neder,
527 U.S 1 (1999) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
United States v. Palin,
874 F.3d 418 (4th Cir. 2017)  . . . . . . . . . . . . . . 21, 22, 23

ix
Cited Authorities
Page
United States v. Peterson,
533 F.3d 1064 (9th Cir. 2008) . . . . . . . . . . . . . . . . . 24
United States v. Peterson,
533 F.3d 1064 (9th Cir. 2008) . . . . . . . . . . . . . . . . . . . 24
United States v. Phillip Morris USA Inc.,
566 F.3d 1095 (D.C. Cir. 2009) . . . . . . . . . . . . . . . . . . 24
United States v. Raza,
876 F.3d 604 (4th Cir. 2017) . . . . . . . . . . . . . . 22, 23, 27
United States v. Rigas,
490 F.3d 208 (2d. Cir. 2007) . . . . . . . . . . . . . . . . . . . . 24
United States v. Rodriguez-Rodriguez,
840 F.2d 697 (9th Cir. 1988) . . . . . . . . . . . . . . . . . . . .  17
United States v. Tantillo,
686 Fed. Appx. 257 (5th Cir. 2017)  . . . . . . . . . . . . . . 23
United States v. Triple Canopy, Inc.,
857 F.3d 174 (4th Cir. 2017)  . . . . . . . . . . . . . . . . . . . . 31
United States v. Walgren,
885 F.2d 1417 (9th Cir. 1989)  . . . . . . . . . . . . . . . . . . . 19
United States v. Wright,
665 F.3d 60 (3d Cir. 2012) . . . . . . . . . . . . . . . . . . . . . . 24

x
Cited Authorities
Page
Universal Health Servs., Inc. v.
United States ex rel. Escobar,
136 S. Ct. 1989 (2016)  . . . . . . . . . . . . . . . . . . . . . passim
Statutes and Other Authorities
18 U.S.C. § 1001  . . . . . . . . . . . . . . . . . . . . . . . . 1, 20, 29, 31
18 U.S.C. § 1001(a)(2) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
18 U.S.C. § 1001(a)(3)  . . . . . . . . . . . . . . . . . . . .  3, 15, 17, 24
18 U.S.C. § 1343  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
18 U.S.C. § 1347  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
18 U.S.C. § 1349  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
48 CFR § 15.404-4(a)(2) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

1
OPINIONS BELOW
The memorandum decision of the United States
Court of Appeals for the Ninth Circuit (July 26, 2019) is
unreported. It is reprinted as Petitioner App. A. App.
1a. The amended order denying Petitioner’s petition for
writ of error coram nobis and order denying alternative
petition for writ of audita querela by the United States
District Court for the District of Hawaii, Crim. No. 0400150 SOM, Civ. No. 15-00377 SOM-RLP (June 28, 2017)
is unreported. It is reprinted as Petitioner App. B. App.
5a. The order of denial of rehearing of the United States
Court of Appeals for the Ninth Circuit (October 3, 2019) is
unreported. It is reprinted as Petitioner App. C. App. 64a.
JURISDICTION
The Ninth Circuit issued its memorandum decision on
July 26, 2019. App. 1a. The court denied panel rehearing
and rehearing en banc on October 3, 2019. App. 64a. This
Court has jurisdiction under 28 U.S.C. § 1254(1).
STATUTORY PROVISION INVOLVED
The federal False Statements statute, 18 U.S.C.
§ 1001, provides in pertinent part:
(a) Except as otherwise provided in this section,
whoever, in any matter within the jurisdiction
of the executive, legislative, or judicial branch
of the Government of the United States,
knowingly and willfully—
...

2
(3) makes or uses any false writing or document
knowing the same to contain any materially
false, fictitious, or fraudulent statement or
entry; shall be fined under this title, imprisoned
not more than 5 years or, if the offense involves
international or domestic terrorism (as defined
in section 2331), imprisoned not more than
8 years, or both. If the matter relates to an
offense under chapter 109A, 109B, 110, or 117,
or section 1591, then the term of imprisonment
imposed under this section shall be not more
than 8 years.
INTRODUCTION
The United States Navy was in a bind. It needed
substantial repairs on a massive pump for a drydock at
the Pearl Harbor Naval Shipyard. Congress had allocated
money for this, but that funding was about to lapse at the
end of the fiscal year.
The Navy turned to defense contractor JHL, which
had been awarded a contract for the same work on a sister
drydock pump the year before. But, pressed by the time
crunch, the Navy asked JHL to submit its new proposal
under a different type of contracting vehicle – one that
the Navy acknowledges was wrong for the circumstances
but that could be executed swiftly. JHL complied and
submitted a proposal at roughly the same cost as the first
job.
During the Navy’s standard contract review process,
an assigned mechanical engineer questioned JHL’s
costs and asked to see the subcontractor’s quotes. Such

3
questioning exposed the Navy’s problem in using the
wrong contracting vehicle. JHL brought in its SBA Mentor
Patrick Shin to try to protect the project for the Navy and
JHL. Shin had a “go to” reputation among senior Navy
contracting officials and his company frequently was asked
to handle problem jobs.
During negotiations, JHL dropped the amount of its
bid – twice. When the engineer persisted in asking for
the subcontractor quotes, Shin concluded that the way to
save the project was to obtain and submit altered numbers
for these quotes to account both for the money to the
subcontractors and also for JHL’s profit and overhead.
Undeniably, that was the wrong thing to do. Based on a
tip from HSI, the FBI investigated Shin and Shin readily
admitted what he had done.
Viewed with hindsight, the Navy’s decisionmaker
on this contract testified that Shin was put in a difficult
situation by the way the Government chose to negotiate
this contract. Another senior Navy contracting official
testified that Shin in this regard “was subjected to a
process which put him in a position to fail.”
Regardless, the Government charged Shin with
making a false statement under 18 U.S.C. § 1001(a)
(3). Seeing that Shin had acknowledged making the
alterations, he accepted an agreement to plead guilty to
that charge. But the materiality of the false statements –
an indispensable element of the crime – remained a serious
question. The engineer who asked for the subcontractors’
quotes did not have the authority to accept or reject JHL’s
proposal. And, as the district court later found during
sentencing, the Government never presented proof that

4
Shin had intended to cause a financial loss to the Navy as
a result of his misstatements. His actions were motivated
solely by the need for JHL to recover reasonable profit
and overhead for a project the Navy desperately wanted.
Shin’s acceptance of the materiality of his statements was
so questionable that the prosecutor and the magistrate
judge wondered at the time whether his guilty plea could
be accepted. In the end, applying Ninth Circuit law as it
then existed, the magistrate judge for the district court
found an adequate record on that point because of Shin’s
mere admission that he made the misstatements to justify
the proposal that JHL submitted to the Navy.
Years after Shin completed his twelve days of
confinement and probation, he learned new information
from the Navy’s engineer that made him believe the
Government had wrongfully withheld exculpatory
evidence. On that basis he filed a petition for writ of error
coram nobis to allow him to withdraw his guilty plea and
take his chances at any prosecution the Government still
wished to pursue. (That theory is not part of this petition.)
But while Shin’s coram nobis petition was pending,
this Court issued its opinion in Universal Health Servs.,
Inc. v. United States ex rel. Escobar, 136 S.Ct. 1989,
1995 (2016). Escobar was a False Claim Act case that,
in part, substantially clarified the applicable materiality
requirement and how it was to be enforced. It discussed
what type of evidence would be relevant to that standard.
Shin and his counsel noted that Escobar found support for
its clarifications of how materiality was defined in federal
criminal law and at common law.

5
Shin concluded that Escobar’s clarifications applied
to the False Statement statute as well, and that under
these clarifications his prior misstatements had not been
material. Escobar quoted common law for the proposition
that materiality looks to the effect on the likely or actual
behavior of the recipient of the alleged misrepresentation.
It emphasized that the materiality requirement is
“demanding,” and that materiality cannot be found where
noncompliance is minor or insubstantial. Most critical to
Shin’s case, the Escobar materiality standard included
focus on case-specific facts of the effect on the Government
of the type of misrepresentation in question.
Shin fully briefed and argued to the district court and
the Ninth Circuit that Escobar’s clarifications constituted a
newly emerged basis for coram nobis relief – a substantive
change of law that affected his conviction. There had been
no evidence that Shin’s misstatements were part of any
attempt to cheat the Government. Armed with the Escobar
clarifications, Shin obtained new declarations from the
actual decisionmaker for the Government on JHL’s
proposal – Director of Procurement Operations Division
at Pearl Harbor, Robert Hokama. Hokama testified
that he would have considered Shin’s alteration of the
subcontractor quotes as his effort to put JHL’s proposal
in a form appropriate for consideration and approval by
the Government. Hokama concluded that for this reason
the altered subcontractor bids, which contained amounts
covering overhead and profit because of the task order’s
out-of-scope nature, would not be material to his decision
to award the contract to JHL.
Shin’s arguments in this regard were not successful.
In fact, both the district court and the Ninth Circuit held

6
that all of Hokama’s testimony was irrelevant to Escobar’s
materiality standard.
This petition alleges that such lack of success was
due to the Ninth Circuit’s misinterpretation of Escobar.
Further, the Circuits generally disagree on many key legal
points related to Escobar’s clarifications. They disagree
on whether Escobar’s materiality requirement applies
to prosecution of federal criminal fraud statutes. They
disagree about whether Escobar analyzes materiality
under a “reasonable person” standard or rather based on
case-specific facts of the likely or actual behavior of the
recipient of the alleged misrepresentation. They disagree
about whether materiality allegations must go farther
than simply contending that the statements could have
influenced recipient behavior.
This petition presents an opportunity for this Court to
resolve those critical disagreements, as well as to answer
the important question of who in the Government may
testify as to the effect of a misstatement that becomes
relevant under Escobar’s materiality standard. Shin
contends that should this Court accept review, such
ultimately would result in holdings that would establish
the only missing element of his coram nobis petition – an
error of the most fundamental character concerning the
district court’s acceptance of Shin’s guilty plea.
STATEMENT
A. Background
Facts relevant to Petitioner Patrick Shin’s criminal
prosecution arose from business dealings concerning

7
JHL Construction, Inc., a private government contractor.
2 ER 198. At that time, JHL was a Small Business
Administration Section 8(a) Business Development
Program participant. Id. Shin was JHL’s SBA Mentor
and was authorized to act as an agent on behalf of JHL.
3 ER 85; App. 8a.
In 2002, the Navy needed to overhaul massive pumps
at a drydock location at the Pearl Harbor Naval Shipyard.
2 ER 197-198. At that time, JHL had a Multi-Trades
Contract with the Naval Facilities Engineering Command
of the United States Navy. 2 ER 198, 207. Under the MultiTrades Contract, JHL calculated its actual labor costs,
and then added 6% more (a “6% coefficient”). JHL also
calculated its actual materials costs, and then added 15%
more (a “15% coefficient”). These two coefficients allowed
JHL to recoup its lawful overhead expenses, and also
make a reasonable profit. 2 ER 207.
In August 2002, JHL entered into a $2,355,745 solesource delivery order with the Navy for the overhaul
of Pump #1, Drydock #4. 2 ER 198. This Pump #1
delivery order was issued as an SBA Section 8(a) set-aside
procurement. Id.
In 2003, JHL was awarded a job order contract
(“JOC”) by the Navy. App. 9a. JOCs are based on prepriced construction tasks. Id. The prices typically come
from a unit price book. Id. The Navy’s unit price books
list average costs that might be higher or lower than the
actual costs in a particular local economy. Id. Using the
unit prices relied on by a customer such as the Navy, a
contractor proposes an appropriate coefficient to apply
to the unit prices to cover overhead and profit, thereby

8
arriving at the contract cost. Id. JHL anticipated that
the unit prices would exceed JHL’s actual costs. Id.
Because JHL would make a profit without adding any
coefficient, JHL proposed a zero percent coefficient and
was awarded a zero coefficient contract. Id. Once awarded
to a contractor, a JOC allows an agency to approach and
negotiate with the contractor directly, as construction
needs come up. Id.
In August 2003, the Navy asked JHL to provide a
proposal under the JOC for the overhaul of Pump #2,
Drydock #4, at Pearl Harbor Naval Shipyard. App. 9a.
The Navy was under pressure to award a number of
work orders by the end of the Government’s fiscal year
(September 30, 2003), including 70-80 last-minute jobs to
be negotiated in about 60 days. Id.; 3 ER 192. Assigning
the Pump #2 project to JHL’s JOC was seen as a quick
way to use current year funding. App. 9a. But the Navy
did not, and could not, provide the required justification
for using a JOC – an incorrect contract vehicle for a
proposed order that consisted of 100% non-prepriced
items. 2 ER 206. The NAVFAC Job Order Contracting
Manual states that JOC contracts “should not include a
large percentage of non-prepriced items.” 2 ER 201. “The
percentage value of the non-prepriced component for an
individual delivery order should be limited to no more than
20%.” Id. “Delivery orders that exceed 20% non-prepriced
line items should be thoroughly documented and justified
in a memo to file.” Id. The Navy never authored such a
written justification for its selection of JHL’s JOC for this
substantial work order. 2 ER 206.
Despite being asked by the Navy to submit a price
under an incorrect contract vehicle, JHL provided a

9
proposal for $2,360,153, which was forwarded to the
Navy’s Engineering Department for a technical review of
the costs. App. 10a. Wesley Choy, a mechanical engineer
with the Navy’s Engineering Department, questioned
the costs, which he viewed as high. Id. The costs were
not broken down, and he could not tell how the final
number had been reached. Id. Choy asked the contract
administrator, Annette Ching, to get subcontractor quotes
from JHL to substantiate JHL’s cost proposal. Id. On
August 26, 2003, JHL submitted a second proposal for
the reduced amount of $2,205,138. Id. The second proposal
did not include either a line item breakdown of costs or
the requested subcontractor quotes. Id. Choy asked Ching
to get the subcontractor quotes from the two proposed
subcontractors, HSI Electric, Inc., and Alfred Conhagen
Inc. Id.
Even though JHL’s bid on the Pump #2 delivery
order was fair and reasonable, Choy was not approving
line items that were associated with overhead or profit.
2 ER 31, 115, 210; 3 ER 194, 204. Choy expected those
items to be included in JHL’s coefficient – not knowing
at the time that JHL’s JOC had a “zero coefficient.” Id.
That created a problem – the effect of Choy’s approach
was that JHL would have to forego separate recoupment
of any of its legitimate overhead expense, much less make
any reasonable profit on this $2 million-plus job. 2 ER 211.
As JHL’s agent, Shin intervened to resolve the problem
caused by the Navy’s choice of contracting vehicle. 2 ER
211. Shin had a reputation among senior Navy contracting
officials of being capable of handling the Navy’s difficult,
risky, or emergency-type jobs. 3 ER 191-192.

10
On September 4, 2003, Shin called HSI and asked it
to increase its quote by $100,000, but to invoice JHL the
original amount without the $100,000 markup. App. 10a.
HSI contacted the FBI to inform it of Shin’s request.
Id. Because HSI did not cooperate with Shin’s request,
Shin submitted HSI’s quote from July 10, 2003, which
concerned work on Pump #1. App 10a-11a. Shin altered
the $114,733 price on the July 2003 quote to read $314,733.
2 ER 213.
On September 4, 2003, Shin asked Conhagen to
increase its quote by $180,000, bringing Conhagen’s
subcontract amount from $377,260 to $557,260. App. 11a.
Conhagen provided Shin with the requested quote for
$557,260. Id.
On September 8, 2003, Shin met with Choy and Ching
to discuss JHL’s proposal and give them the altered HSI
quote. App. 11a. Shin ultimately submitted JHL’s best
and final offer of $2,150,000. Id. Yet, also at this meeting,
Choy recalls that Shin explained to him the problem of
using the zero coefficient JOC as the contract vehicle, and
that Choy understood the need to roll overhead and profit
into the contract line items. 2 ER 221-222.
Senior Navy contracting officials later would describe
Shin’s alterations as simply being a way to “shortcut” or
“expedite” the negotiation process. 3 ER 192, 198. The
decisionmaker on the contract recognized that Shin’ s
motivation for the alterations essentially was to avoid
a lengthy higher-level review that might have rendered
negotiations impossible by the end of the fiscal year. 3
ER 192-193.

11
On September 23, 2003, federal agents executed a
search warrant at Shin’s business office. App. 11a. Shin
confessed at that time to having submitted altered and
inflated figures for the Pump #2 job, explaining that
the real subcontractor quotes would not have supported
JHL’s cost proposal and would have caused the Navy to
question the legitimacy of the proposal. Id. He said that,
while Conhagen had provided an inflated quote as he had
requested, HSI’s failure to do so right away had caused
him to doctor HSI’s quote from a previous job. Id.
The Pump #2 project did not involve any prepriced tasks
listed in the Navy’s unit book. App 11a. For that reason,
performing work on Pump #2 under JHL’s zero coefficient
JOC would not have allowed JHL to recover any overhead
or profit. Id. Applicable Government regulations expressly
state that it is not in the Government’s interests to negotiate
contracts that include no profit motivation for contractors.
See FAR 15.404-4(a)(2) (48 CFR § 15.404-4(a)(2)); 2 ER 204208. Shin said the inflated subcontractor quotes were his way
of recovering overhead and profit. App. 11a-12a.
B. Original District Court Proceedings
The Government charged Shin with having made a
false statement to the Government. App 12a. On April
21, 2004, pursuant to a plea agreement, Shin pled guilty
to that charge. Id. As to the issue of “materiality,” the
Memorandum of Plea Agreement only referenced that
Shin: (1) provided the false statement to Navy contracting
officials in response to the Navy’s request for JHL’s
subcontractor pricing; (2) provided the false statement to
the Navy to justify the proposal submitted by JHL; and
(3) provided the false statement to the Navy with intent
to benefit JHL. 4 ER 43-44.

12
At the plea hearing, on the issue of “materiality,” Shin
admitted that he made the false statement to benefit JHL
but added that he also made it to benefit the Government
– “it protects the project.” 4 ER 29. In response to that,
the Government stated that it did not think the Court
should accept his plea. Id. The magistrate judge observed
that Shin’s reason for his false statement impacts whether
or not it was material to the Government. 4 ER 30. The
Government also observed that motivation may not be
material to the plea, but when Shin said he thought what
he did benefitted the Government, “it sounds like he’s
not thinking it was material.” 4 ER 31. The Government
and the magistrate judge ultimately resolved their
“materiality” concerns with just one question to Shin:
MR. SEABRIGHT: Judge, you mind if I ask a
question of him?
THE COURT: Sure.
MR. SEABRIGHT: And it was done to justify
the proposal that JHL submitted to the Navy?
MR. SHIN: Yes, it is. Yes, it is.
THE COURT: I think with that that record is
adequate.
MR. SEABRIGHT: I agree.
THE COURT: Mr. Seabright.
MR. SEABRIGHT: I agree.
4 ER 31-32.

13
During sentencing proceedings, Shin argued that
the Pump #2 job was not prepriced and therefore had
been improperly assigned under JHL’s zero coefficient
JOC, depriving JHL of a chance to recover overhead
and profit. App. 11a. Shin contended that he had altered
the subcontractor quotes only to recover a reasonable
profit on the job. Id. He denied any malicious intent but
acknowledged that the way he had handled the situation
was wrong. Id. The district court determined that “there
was clearly an intent to deceive,” and called the offense
“one of these dishonesty kinds of crimes,” but imposed a
sentence that reflected the court’s determination that the
Government had failed to prove that Shin had intended
to cause a loss (a conclusion advanced in the Probation
Officer’s Presentence Report). Id.
On March 8, 2006, Shin was sentenced to three years
of probation, which included twelve days of intermittent
confinement, and a fine of $100,000. Id. Shin paid his fine,
completed his confinement, and completed his term of
probation. 2 ER 220.
C. Shin’s Coram Nobis Petition and Proceedings
After he was sentenced, Shin reached out to Choy
several times to talk about Choy’s role in the prosecution
and to ask him for a written statement. App. 12a.
Ultimately Choy did so, detailing new information about
what Choy initially had told the prosecutor and the
prosecutor’s investigators and about how the prosecutor
went about obtaining his key declaration for the sentencing
phase. See App. 12a-14a.
Specifically, in April 2014, Choy provided Shin with
a typed, unsigned “clarification” statement regarding

14
his role in the contracting process. App. 13a. Choy’s
“clarification” statement includes the following points: (1)
he recalled having stated at a meeting with Shin in 2003
that he understood that Shin needed to “roll” overhead
and profit into the line items, given the zero coefficient
contract, but that that was a contractual rather than
technical issue; (2) imposing a zero coefficient contract on
JHL was not fair or reasonable; (3) Choy was surprised to
hear that the project had a zero coefficient; and (4) Choy
had turned the issue over to the contracting officer as the
person authorized to resolve the matter. Id.
In May 2015, Shin again spoke with Choy regarding
Choy’s communications with “the Prosecutor and the
Prosecutor’s investigators.” App. 13a. Without telling
Choy, Shin taped the conversation. Id. When Shin asked
Choy whether he had communicated to the Government
personnel any of the points made in his April 2014
“clarification” statement, Choy allegedly stated that he
had told the prosecutor and the prosecutor’s investigators
that he did not have the authority to decide whether JHL
needed to be awarded extra money in the zero coefficient
contract to cover its legitimate and reasonable overhead
and profit. Id. Choy also told Shin: (1) the prosecuting
authorities “put the gun” on him regarding his authority
to decide the zero coefficient issue; (2) the prosecuting
authorities “hid” the fact that Choy was not authorized
to deal with the zero coefficient issue; (3) the prosecuting
authorities only “heard what they wanted to hear to make
their case”; and (4) a declaration that the prosecuting
authorities had Choy sign was “sneaky” and “twisted”
the facts he had given them. Id.
On September 22, 2015, based on the new information
from Choy, Shin petitioned for a writ of coram nobis or,

15
in the alternative, audita querela. The petition sought (1)
the vacating of Shin’s federal criminal conviction on one
count of False Statement pursuant to 18 U.S.C. § 1001(a)
(3); and (2) leave to withdraw his prior guilty plea in this
case. 1 App. 14a.
Yet while Shin’s petition was pending, this Court
issued its opinion in Universal Health Servs., Inc. v.
United States ex rel. Escobar, 136 S.Ct. 1989, 1995 (2016).
Shin argued that decision constituted a change in law and
provided a separate basis for coram nobis relief. See App.
15a-19a.
In furtherance of this argument, Shin submitted to the
district court two new declarations from Robert Hokama.
App. 16a-18a. Hokama testified that from 1997 to 2004 he
was the Director of Procurement Operations Division at
Pearl Harbor responsible for contracting activity relating
to the procurement for construction and maintenance of
naval facilities. App. 16a. He supervised Annette Ching
and was responsible for negotiating and recommending
the contract awarded to JHL in 2003. Id. He suggested
that Ching did not follow certain procedures necessary to
awarding contracts and stated that he was “the ultimate
decision-maker regarding whether to award the Contract
or not” to JHL and Shin. Id. He further stated:
I would have considered Shin’s alteration of the
subcontractor quotes as his effort to put JHL’s
1. The Government filed an Opposition to Shin’s petition
and supported it with a declaration from Choy stating that he
did not say many of the things Shin alleged about the May 2015
conversation. 2. ER 171-172; 183-184. Shin responded by producing
the audiotape and transcript of that conversation (2 ER 117-142),
which supported Shin’s allegations.

16
proposal in a form appropriate for consideration
and approval by the Government considering
the Government’s choice of a JOC for the
Contract, so his alteration of the subcontractor
quotes would not have been material to me.
This a fair price to both the Government and
JHL, and the funding for the Contract would
not have been lost.
...
[Choy’s] Government Estimate was prepared
with a contract coefficient, and JHL’s best and
final offer, including the altered subcontractor
quotes, was very close to the amount of the
Government Estimate. This is also a reason why
the altered subcontractor bids, which contained
amounts covering overhead and profit because
of the task order’s out-of-scope nature, would
not be material to my decision to award the
Contract to JHL as its best and final offer.
App. 16a-17a.
Subsequent to submission of that declaration, the
Ninth Circuit issued its opinion in United States v.
Lindsey, 850 F.3d 1009 (9th Cir. 2017) (“Lindsey II”).
After that decision issued, Shin submitted a supplemental
declaration from Hokama noting that Hokama’s certificate
of appointment “stated no limitation on the scope of [his]
authority, other than limitations contained in applicable law
or regulation.” App. 18a. “As the “designated contracting
officer with highest authority for NAVFAC,” Hokama
said that he “enjoyed a wide latitude to exercise business

17
judgment.” Id. “The U.S. Government is not one monolithic
entity which decides contracting issues uniformly across
every aspect of the procurement process.” Id. He “would
have approved of the JHL Pump 2 contract even with
knowledge that Mr. SHIN provided altered subcontract
bids and would not have considered the alterations by Mr.
Shin ‘material’.” Id.
The district court terminated Shin’s case with an
amended order denying Petitioner’s petition for writ of
error coram nobis and order denying alternative petition
for writ of audita querela. App. 5a-63a. The court held that
Shin had satisfied the first three of the four requirements
for the issuance of coram nobis relief (App. 20a-22a) but
had failed to satisfy the fourth factor of a fundamental
error rendering his conviction invalid (App. 22a-48a).
Pertinent to the questions presented in this petition for
certiorari, the district court concluded:
Under 18 U.S.C. § 1001(a)(3), the element of
materiality is evaluated under “an objective
test, which looks at ‘the intrinsic capabilities
of the false statement itself, rather than the
possibility of the actual attainment of its end.’”
Peterson, 538 F.3d at 1072 (quoting United
States v. Facchini, 832 F.2d 1159, 1162 (9th
Cir. 1987)).
“To be material a statement need only have
the propensity or capacity to inf luence or
affect an agency’s decision.” United States v.
Rodriguez-Rodriguez, 840 F.2d 697, 700 (9th
Cir. 1988). “The agency need not rely on the
information in fact for it to be material.” Id.

18
“Materiality, therefore, is not measured by
effect or magnitude.” Facchini, 832 F.2d at
1162.
App. 25a-26a.
The district court rejected Shin’s argument that
cases such as Escobar and Lindsey II had changed the
law of materiality since the time he had pled guilty. App.
26a-35a., 60a-61a. It also rejected Shin’s contention that
Hokama could provide testimony as to the effect of Shin’s
false statements on him as the applicable decision-maker
for the Government. App 40a-42a, 52a-54a, 61a.
D. Ninth Circuit Proceedings
The Ninth Circuit affirmed the district court’s rulings
in a memorandum decision. App. 1a-4a. It agreed with the
district court that Shin had established the first three
factors for coram nobis relief, but not the fourth. App. 2a.
The memorandum dispensed with Shin’s “materiality”
argument in a single paragraph:
Shin also misreads Escobar. Contrary to Shin’s
contention, both Escobar and United States v.
Lindsey, 850 F.3d 1009 (9th Cir. 2017) reiterated
the “familiar” premise that a statement is
material if a “reasonable [person] would attach
importance to it in determining his choice of
action in the transaction.” Escobar, 136 S.Ct.
at 2002-04 & n.6 (citation and alteration in
original omitted); see also Lindsey, 850 F.3d at
1014. Consequently, Shin’s misstatements could
be material irrespective of their subjective

19
effect on a particular government official. See
Lindsey, 850 F.3d at 1013-14.
App. 3a-4a.
The Ninth Circuit denied panel rehearing and
rehearing en banc. App. 64a-65a.
REASONS FOR GRANTING THE PETITION
Shin’s “materiality” argument for the fourth prong
of the coram nobis test rested on his ability to show that
Escobar and its progeny substantially changed the federal
materiality standard in a manner that would have affected
his case. See, e.g., United States v. Walgren, 885 F.2d 1417,
1422 (9th Cir. 1989) [fundamental error in coram nobis
case shown where McNally decision placed defendant’s
conduct outside of the ambit of the mail fraud statute].
The Ninth Circuit’s simple and straight-forward
rejection of Escobar’s application under Shin’s facts –
perhaps counter-intuitively – make this case an attractive
candidate for resolving accelerating Circuit disagreements
over Escobar’s meaning and application.
As a gateway issue, any questions of Escobar’s
holdings would be relevant to this case only if this Court
intended application to extend beyond False Claim Act
cases to cases of criminal fraud. Thus, Shin’s case provides
an ideal avenue for resolving that far-reaching issue.
This case also raises the issue of dueling materiality
standards focused respectively on a “reasonable person”
versus an “actual decisionmaker.” It involves the question
of what type of materiality allegations must be pled in

20
a case. And it requires a determination of what type of
witness is qualified to give testimony relevant to the effects
of a statement either through the perspective of industry
practice or of the individual recipient of the statement.
These questions affect prosecutions of countless
present and future criminal defendants. Recent highprofile cases illustrate the breadth of prosecutions under
18 U.S.C. § 1001. Questions of materiality go to the heart
of many such prosecutions, where (as in Shin’s case) the
making of the statement and the statement’s contents
largely are undisputed. Certiorari should be granted in
this case to resolve those weighty and timely issues.
I.

The Decision Below Allows This Court to Resolve
Circuit Disagreement as to Whether Escobar’s
Clarifications on Materiality Apply to Criminal Cases

The overwhelming majority of cases applying and
interpreting Escobar arise out of False Claim Act (“FCA”)
cases. Indeed, relatively few non-FCA published opinions
discuss the case. Yet published opinions from two Circuits
that have done so disagree on the fundamental question
of whether Escobar’s clarifications on the materiality
standard extend to criminal cases.
The Ninth Circuit applied the materiality standard
of Escobar in a Wire Fraud case under 18 U.S.C. § 1343,
noting:
The Supreme Cou r t has used cases on
materiality in one context as precedent for
materiality in another. See, e.g., Gaudin, 515
U.S. at 509, 115 S.Ct. 2310 (materiality for crime

21
of making false statements) (citing Kungys,
485 U.S. at 770, 108 S.Ct. 1537 (materiality for
revocation of citizenship)).
Lindsey II, supra, 850 F.3d at 1016, fn. 4. Indeed, Escobar
itself compared the FCA definition of materiality to
language used in other federal fraud statutes. It even
found relevance of the materiality definition at common
law. Escobar, supra, 136 S.Ct. at 2002-2003.
Yet, one Fourth Circuit case, in dicta, rejected such
an application:
As an initial matter, Palin and Webb stretch
Universal Health too far. We do not believe
the Supreme Court intended to broadly
“overrule” materiality standards that had
previously applied in the context of criminal
fraud. And we doubt the Court’s examination
of how materiality applies under “implied false
certification” FCA cases transfers to all cases
charging fraud, or even all cases charging
health care fraud.
United States v. Palin, 874 F.3d 418, 423 (4th Cir. 2017).
Because the Fourth Circuit ultimately concluded that
the misrepresentations in question were material even
under the Escobar standard, it left final resolution of that
question for another day. Id.
A subsequent Fourth Circuit opinion embraced and
expanded on the Palin dicta:
First, to the extent Universal Health altered
the concept of materiality in fraud proceedings,

22
it is not likely that its impact extends beyond the
context of qui tam actions. And a qui tam action
is a civil proceeding that protects the federal
government. The Court implicitly acknowledged
that proposition in Universal Health, explaining
that “[t]he [FCA’s] materiality standard is
demanding. The [FCA] is not an all-purpose
antifraud statute.” See 136 S.Ct. at 2003
(internal quotation marks omitted). We reached
a similar conclusion recently in United States v.
Palin. In the Palin fraud prosecution, several
defendants had been convicted of health care
fraud and conspiracy to commit health care
fraud, in violation of 18 U.S.C. §§ 1347 and
1349. See 874 F.3d 418, 420 (4th Cir. 2017).
They appealed, arguing that “Universal Health
established a new materiality standard that
applies to all criminal fraud statutes, including
§ 1347.” Id. at 422. Judge Motz’s opinion
expressed skepticism with that assertion,
recognizing that the defendants sought to
“stretch Universal Health too far.” Id. at 423.
Although Palin only had to decide whether
Universal Health impacted the materiality
element in the context of health care fraud, it
specified that “[w]e do not believe the Supreme
Court intended to broadly ‘overrule’ materiality
standards that had previously applied in the
context of criminal fraud.” Id. We readily agree.
United States v. Raza, 876 F.3d 604, 620 (4th Cir. 2017).
Additionally, in a footnote of an unpublished per
curium decision, the Fifth Circuit summarily concluded

23
that the “rigorous” materiality requirement of Escobar
has no application to materiality for the purposes of 18
U.S.C. § 1001(a)(2). United States v. Tantillo, 686 Fed.
Appx. 257, 262, fn. 6 (5th Cir. 2017).
Like in Palin, the brief Ninth Circuit disposition
in Shin’s case begins with the conclusion that Shin
“misreads Escobar.” A nd while the Memorandum
appears to apply the materiality standards of Escobar,
its summary rejection of the relevance of decisionmaker
Hokama’s testimony suggests application of the concept
of materiality envisioned by Palin, Raza, and Tantillo
rather than Escobar and Lindsey II.
Regardless, because application of Escobar ’s
clarifications in a False Statements case is a threshold
determination for the other questions presented for
certiorari here, this case presents an opportunity to
confront the Fourth Circuit’s approach of not applying
Escobar in the context of criminal fraud. Materiality
is a critical element of federal criminal fraud statutes.
Uncertainty as to application of Escobar’s clarifications
is contrary to the interests of both the Government and
present and future criminal fraud defendants.
II. The Decision Below Allows This Court to Resolve
the Question of Whether Escobar Endorsed a
“Reasonable Person” Materiality Standard
The Ninth Circuit’s rejection of Shin’s Escobar
arguments was brief and blunt. It applied a “reasonable
person” materiality standard; “. . . a statement is material
if a [‘]reasonable [person] would attach importance to it in
determining his choice of action in the transaction.[‘]” App.

24
3a. This choice of standard jettisoned both the relevance
of Hokama’s new evidence and Shin’s contention that a
substantive change of law since his guilty plea made that
evidence relevant. Id.
Predating Escobar, tension existed among several
Circuits concerning materiality standards in criminal
fraud cases. One group of Circuits appears to apply an
actual-decisionmaker standard in determining whether a
defendant’s misstatements were material. 2 Another group
appears to apply a reasonable person standard to make
that materiality determination. 3
2. United States v. Rigas, 490 F.3d 208, 235 (2d. Cir. 2007) [for
defendant’s “misstatements to be material,” “they had to be capable
of influencing a decision that the bank was able to make,” and holding
that the statements at issue were “immaterial, i.e., incapable of
influencing the intended victim”]; United States v. Wright, 665 F.3d
60, 575 (3d Cir. 2012) [misstatements at issue were material because
they “might have changed the [building owner’s] mind about the
building’s value”]; United States v. Holmes, 406 F.3d 337, 355, fn. 27
(5th Cir. 2005) [observing that while “one formulation” of materiality
may involve a “reasonable man,” “in [the] bank fraud context, a
statement is material if it has a natural tendency to influence, or
was capable of influencing the decision of the lending institution”].
3. United States v. Phillip Morris USA Inc., 566 F.3d 1095,
1122 (D.C. Cir. 2009) [observing that a statement is material
under wire or mail fraud statutes “if the matter at issue is of
importance to a reasonable person in making a decision about a
particular matter or transaction”]; United States v. Peterson, 533
F.3d 1064, 1073 (9th Cir. 2008) [under 18 U.S.C. § 1001(a)(3), the
element of materiality is evaluated under “an objective test, which
looks at ‘the intrinsic capabilities of the false statement itself,
rather than the possibility of the actual attainment of its end.’”];
United States v. McBane, 433 F.3d 344, 351 (3d Cir. 2005) [while
a false statement affecting a specific agency decision makes for an
easier materiality determination, the standard requires that the
statement be capable of influencing a reasonable decisionmaker].

25
Escobar begins its clarifications with reference to a
common definition of materiality in federal fraud statutes:
“[T]he term ‘material’ means having a natural tendency
to influence, or be capable of influencing, the payment
or receipt of money or property.” Escobar, supra, citing
United States v. Neder, 527 U.S 1, 16 (1999), and Kungys
v. United States, 485 U.S. 759, 770 (1988). It also adds:
“Under any understanding of the concept, materiality
“look[s] to the effect on the likely or actual behavior of
the recipient of the alleged misrepresentation.” Id., 136
S.Ct. at 2002 (citation omitted). But this Court’s opinion
also makes reference to materiality under common law
contract and tort principles mentioning the concept of the
“reasonable person.” In a footnote, it quotes Williston on
Contracts as stating:
(“most popular” understanding is “that a
misrepresentation is material if it concerns
a matter to which a reasonable person would
attach importance in determining his or
her choice of action w ith respect to the
transaction involved: which will induce action
by a complaining par ty[,] knowledge of
which would have induced the recipient to act
differently” . . . )
Yet, the paragraphs clarifying this Court’s own
“demanding” materiality standard are not based purely
on mere reference to a “reasonable person”:
In sum, when evaluating materiality under the
False Claims Act, the Government’s decision
to expressly identify a provision as a condition
of payment is relevant, but not automatically
dispositive. Likewise, proof of materiality

26
can include, but is not necessarily limited to,
evidence that the defendant knows that the
Government consistently refuses to pay claims
in the mine run of cases based on noncompliance
with the particular statutory, regulatory, or
contractual requirement. Conversely, if the
Government pays a particular claim in full
despite its actual knowledge that certain
requirements were violated, that is very strong
evidence that those requirements are not
material. Or, if the Government regularly pays
a particular type of claim in full despite actual
knowledge that certain requirements were
violated, and has signaled no change in position,
that is strong evidence that the requirements
are not material.
Id., 136 S.Ct. at 2003-2004 (footnote omitted).
Cour ts apply ing Escobar have g rappled w ith
reconciliation of the “reasonable person” citation and
the clarifications that proof of materiality – or a defense
against the same – may focus on the effect of the violation
on the actual decisionmaker.
Most courts presently look to the effect on the
hypothetical “reasonable person.” The Seventh Circuit
ruled in a bank fraud case that where the victim is a
private person, “whether a statement is material depends
on its effect on ‘a reasonable person’ – or, in this case,
a reasonable lender.” U.S v. Betts-Gaston, 860 F.3d
525, 532 (7th Cir. 2017). The Tenth Circuit ruled that a
misrepresentation is material if it “had the ‘capability’
or ‘natural tendency’ to influence a reasonable bank’s

27
decision of whether to provide a loan.” U.S v. Williams, 865
F.3d 1302, 1312 (10th Cir. 2017). The Fourth Circuit held
that the actual decisionmaker standard “does not apply
to a fraud scheme that targets a private lender such as
SunTrust,” and that materiality instead must be judged
from the perspective of a “reasonable lender in SunTrust’s
position – not necessarily SunTrust itself.” Raza, supra,
876 F.3d at 621.
The Ninth Circuit employs a different interpretation,
though its contours appear imprecise. Lindsey II held
that “materiality is an objective element, and an absence
of reliance does not affect its presence . . . a victim’s
intentional disregard of relevant information is not a
defense to wire fraud and thus evidence of such disregard
is not admissible as a defense to mortgage fraud.” Lindsey
II, supra, 850 F.3d at 1015-16. Yet it also held that Escobar
has altered that standard somewhat:
The Supreme Court’s language suggests that
evidence of the Government’s past treatment
of a particular requirement is admissible
to show that a defendant’s violation of that
requirement is not material. Translating to the
mortgage fraud context, Escobar suggests that
defendants be allowed to probe lender behavior
to some extent. The question is how much.
Id., 850 F.3d at 1017. The court settled on a rule that a
defendant may “attack materiality through industry
practice,” but not through “the practice of particular
lenders.” Id., 850 F.3d at 1016. See also, United States v.
Green, 698 Fed.Appx. 879, 880 (9th Cir. 2017).

28
But Lindsey II was followed soon after by United
States ex rel. Rose v. Stephens Institute, 901 F.3d 1124 (9th
Cir. 2018). Illustrating fluidity in the “materiality” analysis,
the Ninth Circuit entertained that interlocutory appeal to
“settle questions of law posed in the wake of [Escobar].”
(Id., 901 F.3d at 1127.) Escobar’s materiality standard
split the panel. The full panel agreed on key principles.
First, Escobar added to the materiality standard at least
somewhat. The majority viewed Escobar as creating a
“gloss” on materiality analysis and noted that while a
condition of payment regarding the False Claims Act is
relevant it is not dispositive – seemingly extending past
precedent. (Id., 901 F.3d at 1130-1131.) Second, Escobar’s
materiality standard focuses on case-specific facts of “the
likely or actual behavior of the recipient of the alleged
misrepresentation.” (Id., 901 F.3d at 1131.) One reviewed
factor was the “magnitude of violation.” (Id. 901 F.3d at
1134.) That holding by all three panel judges seeming is
at odds with Lindsey II. The dissent found Escobar fully
overruled prior Ninth Circuit precedent, and that the
majority failed to fully articulate the Escobar materiality
standard – declaring that Escobar had “imposed a new
materiality analysis that we must follow and apply.” (Id.,
901 F.3d at 1135.) The dissent concluded, evidence of the
government’s response to a misrepresentation “must
be specific or directly analogous to the current alleged
misrepresentation.” (Id., 901 F.3d at 1137.)
Shin’s appellate result did not reference the statements
in Lindsey II about how Hokama’s statement might be or
not be evidence of industry practice. It did not mention
Rose’s focus on “case-specific facts” of “the likely or actual
behavior of the recipient of the alleged misrepresentation.”
Instead, it appears to have adopted the pre-Escobar

29
position of the “reasonable person” standard Circuits.
Contributing to the confusion, some federal courts
after Escobar continue to grapple with this question but
without any reference to Escobar. United States v. Allen,
364 F.Supp.3d 1234 (D. Kansas 2019), involved as one
count a violation of 18 U.S.C. § 1001. Without reference to
the materiality standard of Escobar, the court found that
materiality was “an objective inquiry that is divorced from
whether the false statement had any actual influence on
the FBI’s investigation.” Id., 364 F.Supp.3d at 1253. In the
high-profile prosecution of United States Senator Robert
Menendez, the district court held that materiality under
the false statement statute was “an objective inquiry” and
that conviction could be supported by a jury conclusion
that the statement was “of a type capable of influencing a
reasonable decisionmaker.” United States v. Menendez,
291 F.Supp.3d 606, 636 (D. N.J. 2018).
Shin’s case, as well as the other post-Escobar cases
referenced above, paint a picture of a federal judiciary
and public in need of further guidance as to how to
implement Escobar’s clarifications. Shin’s case serves as
a viable vehicle for that re-visitation. Both sides briefed
extensively in the district court and in Ninth Circuit the
relevance of Hokama’s declarations. Resolution of that
issue determined the outcome of Shin’s appeal. This Court
should use this case to tackle head on the type of evidence
that may be introduced on materiality, consistent with
Escobar. The answer to that issue further would resolve
the question concerning the continued viability of a pure
objective “reasonable person” materiality standard.

30
III. The Decision Below Allows This Court to Resolve
Circuit Disagreement as to Whether a Materiality
Allegation is Sufficient If It Does Not Show that
a Decision Would Have Been Affected by the
Violation
The majority of Circuit Courts in False Claim Act
cases read Escobar as requiring that the materiality
analysis include pleading allegations showing the
Government’s payment decision would be affected by the
violation in question.
In D’Agostino v. ev3, Inc., 845 F.3d 1 (1st Cir.
2016), the First Circuit held that materiality allegation
was insufficient where it alleged merely that the false
statements in question “could have” inf luenced the
government’s decision to pay a claim. (See also, United
States ex rel. Nargol v. DuPuy Orthopaedics, Inc. 865
F.3d 29 (1st Cir. 2017).)
In United States ex rel. Petratos v. Genentech Inc.,
855 F.3d 481 (3d Cir. 2017), the Third Circuit dismissed
a qui tam action against a drug manufacturer because
there had been no allegation that the Government would
not have paid claims had it known that the defendant
concealed information on the severe side effects from one of
its cancer drugs. The court held that “where a relator does
not plead that knowledge of the violation could influence the
Government’s decision to pay, the misrepresentation likely
does not ‘have a natural tendency to influence payment’ as
required by the statute. (Id., 855 F.3d at p. 490.)
In a case with facts more similar to Shin’s, the Fourth
Circuit addressed the materiality of misrepresentations
by a contractor engaged to provide security at an

31
airbase in Iraq. The contractor had brought in guards
from Uganda who were unable to meet marksmanship
requirements, and falsified scorecards indicating that
they did. (United States v. Triple Canopy, Inc., 857 F.3d
174 (4th Cir. 2017).) The court found the Government had
properly pled materiality, in part, because it had alleged
that when the misrepresentations were discovered the
agency did not renew the contractor’s contract.
If the same view of relevance from these cases had
been applied in Shin’s case, evidence that the Government
would have awarded the contract with actual knowledge
of Shin’s misrepresentations would have been a factor
considered regarding materiality. Yet, the Memorandum
treats such as irrelevant.
Yet these decisions conf lict at a minimum with
decisions of the Sixth, Ninth, and Eleventh Circuits.
United States ex rel. Campie v. Gilead Scis., Inc., 862
F.3d 890 (9th Cir. 2017), and United States ex rel. Prather
v. Brookdale Senior Living Communities, Inc., 892 F.3d
822 (6th Cir. 2018), each held that it is not essential to
Escobar’s materiality analysis that a relator allege that the
misrepresentations affected the Government’s decision to
pay a claim – the abstract possibility that the Government
could refuse payment based on the same was sufficient.
In United States v. Henderson, 893 F.3d 1338 (11th Cir.
2018), the Eleventh Circuit held that the Government
proved materiality of a false statement under 18 U.S.C.
§ 1001 by presenting evidence that the statement could
have misled a medical professional. Id, 893 F.3d at 13461347. Essentially, this view of the materiality requirement
matches what the district court in Shin’s case held when
in 2004 it did not require the Government to show actual
reliance on Shin’s misrepresentations.

32
Cases involving these issues have spawned several
certiorari petitions and published opinions pulling in
diverse directions. The time is ripe for this Court to
address the effect of Escobar in this respect, and this
petition presents that opportunity.
IV. Facts of This Case Provide a Sufficient Background
for Resolving the Important Question of Who
the “Decisionmaker” is in Cases Involving the
Government
If this Court were to conclude that Escobar does
establish a basis for testimony of the effect of a false
statement on that statement’s recipient, an important
question arises as to who may give such testimony when
the recipient is the Government. Shin’s case facts starkly
present that question.
As stated above, the Ninth Circuit holds in criminal
fraud cases that a defendant may put on “materiality”
evidence in the form of expert testimony as to the effect
of a false statement on industry practice. Yet these
cases involve private parties as recipients of the false
statements. When the Government is the recipient of the
statements, any distinction between industry practice
and the individual recipient seemingly fades away. The
Government is both individual recipient and its own
unique “industry.” Is the appropriate testifying witness
the Government agent who first takes in the statement?
Or is the appropriate witness the actual decisionmaker
designated by the Government to act on the matter in
which the statement was made? Or a government official
based in Washington D.C.? Or an outside expert on
governmental handling of statements in similar matters?

33
Hokama’s declarations demonstrate that he alone
was designated by the Government to make the decision
on JHL’s contract proposal for Pump #2. That clear
factual record would be an ideal basis on which this Court
may articulate a controlling rule, based upon Escobar’s
principles.
CONCLUSION
For the reasons set forth above, a writ of certiorari
should be granted.
Respectfully submitted,
James E. Friedhofer
Counsel of Record
Friedhofer PC
11410 Bracken Fern Cove
San Diego, CA 92131
(858) 693-4400
jfriedhofer@friedhofer.com
Counsel for Petitioner

APPENDIX

1a
A
APPENDIX A —Appendix
MEMORANDUM
OF THE
UNITED STATES COURT OF APPEALS FOR THE
NINTH CIRCUIT, FILED JULY 26, 2019
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 17-16460
D.C. No. 1:15-cv-00377-SOM-RLP
PATRICK SHIN,
Petitioner-Appellant,
v.
UNITED STATES OF AMERICA,
Respondent-Appellee.
MEMORANDUM*
Appeal from the United States District Court
for the District of Hawaii
Susan O. Mollway, District Judge, Presiding
Argued and Submitted October 12, 2018
Honolulu, Hawaii
Before: WARDLAW, BERZON, and RAWLINSON,
Circuit Judges.
*. This disposition is not appropriate for publication and
is not precedent except as provided by Ninth Circuit Rule 36-3.

2a
Appendix A
Patrick Shin (Shin) appeals the district court’s denial
of his petition for a writ of error coram nobis or, in the
alternative, a writ of audita querela.
We review de novo the district court’s ruling on a
petition for a writ of error coram nobis or a writ of audita
querela. See United States v. Riedl, 496 F.3d 1003, 1005
(9th Cir. 2007); see also United States v. Hovsepian, 359
F.3d 1144, 1153 (9th Cir. 2004) (en banc). We review for
an abuse of discretion a district court’s determination
whether an evidentiary hearing is warranted. See
Runningeagle v. Ryan, 825 F.3d 970, 990 (9th Cir. 2016).
We affirm.
1. To establish entitlement to a writ of error coram
nobis, the petitioner must show that: “(1) a more usual
remedy is not available; (2) valid reasons exist for not
attacking the conviction earlier; (3) adverse consequences
exist from the conviction . . . ; and (4) the error is of the
most fundamental character.” Riedl, 496 F.3d at 1006
(citation omitted). Shin has established the first three
factors, but not the fourth.
As Shin has completed his sentence and is not
in custody, no “more usual” remedy is available. Id.
(citation omitted). Because Shin only became aware of the
asserted exculpatory evidence in May, 2015, he had valid
reasons for not attacking his conviction earlier. Finally,
Shin has suffered at least reputational and professional
consequences as a result of his conviction. See Hirabayashi
v. United States, 828 F.2d 591, 606 (9th Cir. 1987)
(recognizing a “presumption that collateral consequences
flow from any criminal conviction”) (citation omitted).

3a
Appendix A
Shin pled guilty to making a false statement in violation
of 18 U.S.C. § 1001(a)(3), admitting the materiality of his
statement. See United States v. Peterson, 538 F.3d 1064,
1073 (9th Cir. 2008) (listing elements). However, Shin
argues that an “error of the most fundamental character”
occurred because the government violated Brady v.
Maryland, 373 U.S. 83 (1963), when it failed to disclose
exculpatory evidence that Wesley Choy (Choy) was not the
proper party to testify as to materiality, and because his
actions are no longer a crime after the Supreme Court’s
decision in Universal Health Services, Inc. v. United
States ex rel. Escobar, 136 S. Ct. 1989 (2016).
Without deciding whether a Brady violation qualifies
as an error of “the most fundamental character,” we
conclude that no Brady violation occurred because Shin
did not prove the existence of exculpatory evidence.
Although Choy acknowledged that he could not testify as
to the materiality of Shin’s false statement, Shin failed to
provide any evidence that the government could not prove
materiality through another witness, such as Annette
Ching.
Shin also misreads Escobar. Contrary to Shin’s
contention, both Escobar and United States v. Lindsey,
850 F.3d 1009 (9th Cir. 2017) reiterated the “familiar”
premise that a statement is material if a “reasonable
[person] would attach importance to it in determining his
choice of action in the transaction.” Escobar, 136 S.Ct. at
2002-04 & n.6 (citation and alteration in original omitted);
see also Lindsey, 850 F.3d at 1014. Consequently, Shin’s
misstatements could be material irrespective of their

4a
Appendix A
subjective effect on a particular government official. See
Lindsey, 850 F.3d at 1013-14.
2. “If the record refutes the applicant’s factual
allegations or otherwise precludes habeas relief, a district
court is not required to hold an evidentiary hearing.”
Sivak v. Hardison, 658 F.3d 898, 927 (9th Cir. 2011)
(citation and alteration omitted). Shin failed to establish
that an evidentiary hearing would reveal support for a
Brady violation or for an absence of materiality. Thus,
the district court did not abuse its discretion in denying
Shin’s request for an evidentiary hearing. See id.
3. “A person seeking a writ of audita querela must
show . . . a legal defect in the underlying sentence or
conviction. . . .” Hovsepian, 359 F.3d at 1154 (citations and
internal quotation marks omitted). As discussed, Shin did
not establish any such defect. Thus, audita querela relief
is not available. See id.
AFFIRMED.

5a
Appendix B ORDER OF THE
APPENDIX B — AMENDED
UNITED STATES DISTRICT COURT FOR THE
DISTRICT OF HAWAII, FILED JUNE 28, 2017
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF HAWAII
PATRICK SHIN,
Petitioner,
vs.
UNITED STATES OF AMERICA,
Respondent.
June 28, 2017, Decided,
June 28, 2017, Filed
CRIM. NO. 04-00150 SOM,
CIV. NO. 15-00377 SOM-RLP
AMENDED ORDER DENYING DEFENDANT’S
PETITION FOR WRIT OF ERROR CORAM NOBIS;
ORDER DENYING ALTERNATIVE PETITION
FOR WRIT OF AUDITA QUERELA
I.

INTRODUCTION.

Defendant Patrick Shin pled guilty with a plea
agreement to having made a false statement to the
Government in violation of 18 U.S.C. § 1001. He was

6a
Appendix B
sentenced in 2006 to three years of probation, which
included twelve days of intermittent confinement, and to
a $100,000 fine. Shin now seeks to vacate his conviction
more than ten years after judgment was entered. Having
long since paid his fine and completed his term of probation
and intermittent confinement, he seeks a common law writ
of coram nobis or audita querela.
In his Verified Petition for Writ of Error Coram
Nobis, or Alternatively, for Writ of Audita Querela, filed
on September 22, 2015, Shin argues that he has recently
discovered exculpatory evidence that the Government
should have disclosed to him before he entered his guilty
plea. Specifically, Shin contends that the Government
wrongfully withheld evidence that a Navy engineer
involved in the contracting process could not have testified
as to the materiality of Shin’s false statements. Shin says
that, because materiality is an essential element of the
false statement charge, his conviction should be vacated.
Although Shin’s original materiality argument was
couched in terms of an alleged violation by the Government
of its disclosure obligation under Brady v. Maryland,
373 U.S. 83, 83 S. Ct. 1194, 10 L. Ed. 2d 215 (1963), Shin
has, over time, refocused his materiality analysis. In
2016, months after Shin had filed his Verified Petition,
the Supreme Court discussed the materiality standard
applicable to a False Claims Act charge in Universal
Health Services, Inc. v. United States ex rel. Escobar,
136 S. Ct. 1989, 195 L. Ed. 2d 348 (2016). Less than a
month later, the Ninth Circuit examined the materiality
standard without mentioning Escobar. Rehearing was

7a
Appendix B
sought, and, on rehearing, the Ninth Circuit expressly
considered Escobar’s materiality analysis. See United
States v. Lindsey (Lindsey I), 827 F.3d 865 (9th Cir. 2016),
rehearing granted and opinion withdrawn by 854 F.3d
1047 (9th Cir. 2017); see also United States v. Lindsey
(Lindsey II), 850 F.3d 1009 (9th Cir. 2017). This court gave
the parties in the present case an opportunity to discuss
the recent materiality case law.
In his optional supplemental memoranda, Shin argues
that Escobar articulates a new standard of materiality that
should be retroactively applied to his circumstances, and
that Lindsey II confirms this. Particularly with respect
to his request for a writ of audita querela, Shin says that,
under Escobar, he could have raised a defense to the false
claim charge that he could not have availed himself of at
the time he pled guilty. Shin reads Escobar as saying that,
in the context of a false claim charge, the relevant evidence
concerns whether the particular government decisionmaker was affected by (or would have been affected by)
the false statement, not whether the statement had the
propensity to influence a decision. That is, Shin contends
that, under Escobar, a false statement is material only if
the particular government official in issue subjectively
relied on it (or would have relied on it), and that materiality
is not viewed objectively. Shin adds that, under the new
subjective standard he says Escobar established, a jury
would have likely acquitted him of the false statement
charge in light of evidence that the Navy official with
“ultimate approving authority” for government contracts
would have approved the contract in issue even knowing
that Shin had made false statements.

8a
Appendix B
Although Shin says that these arguments also apply
to his petition for a writ of coram nobis, he does not
specifically analyze Escobar or Lindsey II in the coram
nobis context, despite this court’s invitation that he do so.
Instead, Shin asks this court to allow him to amend his
Verified Petition to include a request for coram nobis relief
based on Escobar. He signals to this court that, if denied
relief in the present order and if also denied a chance to
amend his petition, he will reserve these arguments for
a motion for reconsideration and an appeal.
This court denies Shin’s petition for a writ of coram
nobis and a writ of audita querela. The court also denies
Shin’s motion to amend his Verified Petition to raise
Escobar in the coram nobis context. Having allowed Shin
to argue any impact Escobar or Lindsey II may have on
his coram nobis argument, this court concludes that it may
proceed to determine that impact on the present record.
This court further concludes that Shin is not entitled to
further discovery or a hearing on his petition.
The present order replaces and supersedes this court’s
earlier order denying coram nobis relief and reserving
any decision as to audita querela relief. That earlier order,
filed on September 1, 2016, preceded the issuance of the
Lindsey II opinion and the filing of additional briefs.
II. BACKGROUND.
At all times material to the conviction, Shin was
authorized to act as an agent on behalf of JHL Construction,
Inc., a general contracting company owned by Shin’s

9a
Appendix B
nephew, James Lee. See ECF No. 91 in Crim. No. 04-00150
SOM, PageID # 249. (All ECF and PageID references
are to Crim No. 04-00150, rather than to the companion
civil case.)
In 2003, JHL was awarded a job order contract
(“JOC”) by the Navy. JOCs are based on pre-priced
construction tasks. The prices typically come from a unit
price book. See id. The Navy’s unit price books list average
costs that might be higher or lower than the actual costs
in a particular local economy. See id., PageID # 250-51.
Using the unit prices relied on by a customer such as the
Navy, a contractor proposes an appropriate coefficient
to apply to the unit prices to cover overhead and profit,
thereby arriving at the contract cost. See id.
JHL anticipated that the unit prices would exceed
JHL’s actual costs. See id., PageID #s 253-54. Because
JHL would make a profit without adding any coefficient,
JHL proposed a zero percent coefficient and was awarded
a zero coefficient contract. See id.
Once awarded to a contractor, a JOC allows an agency
to approach and negotiate with the contractor directly, as
construction needs come up. See id., PageID # 249-54. In
August 2003, the Navy asked JHL to provide a proposal
under the JOC for the overhaul of Pump # 2, Drydock #
4, at Pearl Harbor Naval Shipyard. See id., PageID #s
254-55. The Navy was under pressure to award a number
of work orders by the end of the Government’s fiscal year
(September 30, 2003), and assigning the Pump # 2 project
to JHL’s JOC was seen as a quick way to use current year
funding. See id.

10a
Appendix B
JHL provided a proposal for $2,360,153, which was
forwarded to the Navy’s Engineering Department for
a technical review of the costs. See id., PageID # 272.
Wesley Choy, a mechanical engineer with the Navy’s
Engineering Department, questioned the costs, which
he viewed as high. See id., PageID #s 259-60; ECF No.
100, PageID # 395. The costs were not broken down, and
he could not tell how the final number had been reached.
See ECF No. 100, PageID # 395. Choy asked the contract
administrator, Annette Ching, to get subcontractor quotes
from JHL to substantiate JHL’s cost proposal. See id.
On August 26, 2003, JHL submitted a second proposal
for the reduced amount of $2,205,138. See id., PageID #s
395-96. The second proposal did not include either a line
item breakdown of costs or the requested subcontractor
quotes. See id., PageID # 396. Choy asked Ching to
get the subcontractor quotes from the two proposed
subcontractors, HSI Electric, Inc., and Alfred Conhagen,
Inc. See id.
On September 4, 2003, Shin called HSI and asked it
to increase its quote by $100,000, but to invoice JHL the
original amount without the $100,000 markup. See ECF
No. 64, ¶ 15. HSI contacted the FBI to inform it of Shin’s
request. See id.; see also ECF No. 91, PageID # 264.
As directed by the FBI, HSI then gave Shin the
requested quote with the inflated price. See ECF No.
64, ¶ 17; ECF No. 91, PageID # 265. However, instead of
submitting this quote to the Navy, Shin submitted HSI’s
quote from July 10, 2003, which concerned work on Pump

11a
Appendix B
# 1. See ECF No. 64, ¶ 17; ECF No. 91, PageID # 264-65.
Shin used white-out to alter the $114,733 price on the July
2003 quote to $314,733. See ECF No. 64, ¶ 17.
On September 4, 2003, Shin asked Conhagen to
increase its quote by $180,000, bringing Conhagen’s
subcontract amount from $377,260 to $557,260. See id.,
¶ 18. Conhagen provided Shin with the requested quote
for $557,260. See id.
On September 8, 2003, Shin met with Choy and Ching
to give them the altered HSI and Conhagen quotes. See
id., ¶ 19; ECF No. 91, PageID # 264. Shin ultimately
submitted JHL’s best and final offer of $2,150,000. See
ECF No. 64, ¶ 19; ECF No. 91, PageID # 269-70.
On September 23, 2003, federal agents executed a
search warrant at Shin’s business office. See ECF No.
91, PageID # 266. Shin confessed at that time to having
submitted altered and inflated figures for the Pump # 2
job, explaining that the real subcontractor quotes would
not have supported JHL’s cost proposal and would have
caused the Navy to question the legitimacy of the proposal.
See ECF No. 64, ¶ 20. He said that, while Conhagen had
provided an inflated quote as he had requested, HSI’s
failure to do so right away had caused him to doctor HSI’s
quote from a previous job. See id.
The Pump # 2 project did not involve pre-priced tasks
listed in the Navy’s unit book. For that reason, performing
work on Pump # 2 under JHL’s zero coefficient JOC did
not allow JHL to recover any overhead or profit. Shin

12a
Appendix B
said the inflated subcontractor quotes were his way of
recovering overhead and profit. See id.
The Government charged Shin with having made a
false statement to the Government. See ECF No. 1. On
April 21, 2004, pursuant to a plea agreement, Shin pled
guilty to that charge. See ECF No. 8. On March 8, 2006,
Shin was sentenced to three years of probation, which
included twelve days of intermittent confinement, and a
fine of $100,000. See ECF No. 62, PageID #s 140-43.
During sentencing proceedings, Shin argued that the
Pump # 2 job was not pre-priced and therefore had been
improperly assigned under JHL’s zero coefficient JOC,
depriving JHL of a chance to recover overhead and profit.
See ECF No. 99, PageID #s 337-40. Shin contended that
he had altered the subcontractor quotes only to recover
a reasonable profit on the job. See id., PageID #s 340-41.
He denied any malicious intent, but acknowledged that
the way he had handled the situation was wrong. See
id., PageID #s 342-43, 372. This court determined that
“there was clearly an intent to deceive,” see id., PageID
# 352, and called the offense “one of these dishonesty
kinds of crimes,” see id., PageID # 368, but imposed a
sentence that reflected the court’s determination that the
Government had failed to prove that Shin had intended
to cause a loss. See id.
After he was sentenced, Shin reached out to Choy
several times to talk about Choy’s role in the prosecution
and to ask him for a written statement. See ECF No. 91,
PageID # 271. Choy originally said that Government

13a
Appendix B
lawyers had told him not to provide any such written
statement without approval from the U.S. Attorney’s
Office. See id., PageID #s 271-72. Eventually, in
approximately April 2014, Choy provided Shin with a
typed, unsigned “clarification” statement regarding his
role in the contracting process. See id., PageID # 272.
Choy’s “clarification” statement includes the following
points: 1) he recalled having stated at a meeting with
Shin in 2003 that he understood that Shin needed to
“roll” overhead and profit into the line items, given the
zero coefficient contract, but that that was a contractual
rather than technical issue; 2) imposing a zero coefficient
contract on JHL was not fair or reasonable; 3) Choy was
surprised to hear that the project had a zero coefficient;
and 4) Choy had turned the issue over to the contracting
officer as the person authorized to resolve the matter. See
ECF No. 91-2, PageID # 307.
In May 2015, Shin spoke with Choy regarding Choy’s
communications with “the Prosecutor and the Prosecutor’s
investigators.” See ECF No. 91, PageID # 276. Without
telling Choy, Shin taped the conversation. See ECF No.
102-3, PageID #s 470-91. When Shin asked Choy whether
he had communicated to the Government personnel any of
the points made in his April 2014 “clarification” statement,
Choy allegedly stated that he had told the prosecutor and
the prosecutor’s investigators that he did not have the
authority to decide whether JHL needed to be awarded
extra money in the zero coefficient contract to cover
its legitimate and reasonable overhead and profit. See
ECF No. 91, PageID #s 277-78. Choy also allegedly told

14a
Appendix B
Shin: 1) the prosecuting authorities “put the gun” on him
regarding his authority to decide the zero coefficient issue;
2) the prosecuting authorities “hid” the fact that Choy was
not authorized to deal with the zero coefficient issue; 3)
the prosecuting authorities only “heard what they wanted
to hear to make their case”; and 4) a declaration that the
prosecuting authorities had had Choy sign was “sneaky”
and “twisted” the facts he had given them. See id.
On September 22, 2015, Shin moved for a writ of
coram nobis or, in the alternative, audita querela. The
motion sought (1) the vacating of Shin’s federal criminal
conviction on one count of False Statement pursuant to
18 U.S.C. § 1001(a)(3); and (2) leave to withdraw his prior
guilty plea in this case. See id., PageID # 243.
Shin filed a motion for leave to depose Choy and Ching.
See ECF No. 105. This court denied Shin’s discovery
request to the extent it supported his petition for a writ of
coram nobis, but noted that it was premature for Shin to
seek discovery in aid of a writ of audita querela because
a writ of audita querela is a remedy of last resort, and his
request for a writ of coram nobis was still pending. See
ECF No. 117, PageID #s 600-01. This court thus deferred
any ruling on Shin’s discovery request insofar as it was
brought in aid of obtaining a writ of audita querela. See
id., PageID # 601.
On September 1, 2016, this court denied Shin’s
petition for a writ of coram nobis and invited Shin to
submit an optional supplemental memorandum regarding
his alternative request for a writ of audita querela. See

15a
Appendix B
Order Denying Defendant’s Petition for Writ of Error
Coram Nobis, and Inviting Supplementation of Alternative
Petition for Writ of Audita Querela, ECF No. 126, PageID
# 651. This court again deferred any ruling on Shin’s
discovery request to the extent it related to his request
for a writ of audita querela. See id.
Shin’s optional supplemental memorandum argues
that, in Universal Health Services, Inc. v. United States ex
rel. Escobar, 136 S. Ct. 1989, 195 L. Ed. 2d 348 (2016), the
Supreme Court set forth a new definition of materiality that
is retroactive and that provides Shin with a defense that
was not available to him at the time judgment was entered.
See Shin’s Supplemental Memorandum Regarding His
Motion for Writ of Audita Querela and Motion to Amend
Petition, ECF No. 135, PageID #s 746-50. Shin asserts
that, given this new definition, his conviction should be
vacated as defective. See id. Specifically, he contends that
Escobar creates a new subjective materiality standard
for false statement claims, replacing the former objective
materiality standard. See id., PageID #s 746-49. Shin says
that, under this new standard, his lies were immaterial
if the Government would have awarded the contract to
him even knowing that his subcontractor quotations were
inflated. See id., PageID #s 746-47, 751-53.
The Government counters that Escobar did not change
the law relating to materiality and thus did not create
a legal defect in Shin’s conviction. See Government’s
Opposition to Shin’s Motion for Writ of Audita Querela,
ECF No. 136, PageID # 757. The Government contends
that Escobar “simply applied the accepted definition [of
materiality] to a particular context.” See id., PageID # 760.

16a
Appendix B
In responding to the Government’s opposition, Shin
submitted a declaration by Robert Hokama, who allegedly
had the “ultimate” authority to approve the contract.
Hokama “would have approved the contract even if aware
of SHIN’s alteration of the subcontractor bids.” See
Responding Memorandum Regarding Shin’s Motion for
Writ of Audita Querela, ECF No. 139, PageID #s 77677. Shin points to Hokama’s statement as “very strong
evidence” under Escobar that Shin’s false statements were
not material. See id., PageID # 777.
From 1997 to 2004, Hokama was the Director of
Procurement Operations Division at Pearl Harbor
responsible for contracting activity relating to the
procurement for construction and maintenance of naval
facilities. See Declaration of Robert T. Hokama, ECF
No. 139-1, PageID # 780. He supervised Annette Ching
and was responsible for negotiating and recommending
the contract awarded to JHL in 2003. See id., PageID #
781. Hokama suggests that Ching did not follow certain
procedures necessary to awarding contracts and states
that he was “the ultimate decision-maker regarding
whether to award the Contract or not” to JHL and Shin.
See id., PageID #s 781-82. Hokama further states,
I would have considered Shin’s alteration of the
subcontractor quotes as his effort to put JHL’s
proposal in a form appropriate for consideration
and approval by the Government considering
the Government’s choice of a JOC for the
Contract, so his alteration of the subcontractor
quotes would not have been material to me. This

17a
Appendix B
way, the Contract would have been awarded at
a fair price to both the Government and JHL,
and the funding for the Contract would not have
been lost.
...
[Choy’s] Government Estimate was prepared
with a contract coefficient, and JHL’s best and
final offer, including the altered subcontractor
quotes, was very close to the amount of the
Government Estimate. This is also a reason why
the altered subcontractor bids, which contained
amounts covering overhead and profit because
of the task order’s out-of-scope nature, would
not be material to my decision to award the
Contract to JHL as its best and final offer.
See id., PageID #s 782-83.
On November 9, 2016, this court stayed its ruling on
the audita querela issue pending the disposition of the
rehearing motion before the Ninth Circuit in United States
v. Lindsey. See ECF No. 146. Following the issuance of
the Lindsey II opinion, this court invited the parties to
file memoranda “addressing the new Lindsey decision
and its impact, if any on Mr. Shin’s petition (whether in
the coram nobis or the audita querela context, or both).”
See ECF No. 150.
Just as they had dueling positions as to Escobar, the
parties disagree on how to read Lindsey II. According

18a
Appendix B
to Shin, a “subjective standard should now apply to
‘materiality’” pursuant to Lindsey II. ECF No. 157,
PageID # 865. Shin says that Escobar stands for the
proposition that “if the Government pays a particular
claim in full despite its actual knowledge that certain
requirements were violated, that is very strong evidence
that those requirements are not material.” Id., PageID
# 866. Because Hokama would have approved JHL’s
proposal even had he known of the inflated subcontractor
quotes, Shin says his conviction should be vacated. Id.,
PageID #s 865, 870-72.
Shin submits yet another declaration from Hokama,
this one noting that Hokama’s certificate of appointment
“stated no limitation on the scope of [his] authority, other
than limitations contained in applicable law or regulation.”
See Supplemental Declaration of Robert T. Hokama, ECF
No. 157-1, PageID # 873. As the “designated contracting
officer with highest authority for NAVFAC,” he says that
he “enjoyed a wide latitude to exercise business judgment.”
Id., PageID # 874. Hokama further states, “The U.S.
Government is not one monolithic entity which decides
contracting issues uniformly across every aspect of the
procurement process.” Id. He “would have approved of
the JHL Pump 2 contract even with knowledge that Mr.
SHIN provided altered subcontract bids and would not
have considered the alterations by Mr. Shin ‘material’.”
Id., PageID # 875.
The Government points out that Shin offers no
evidence of a systemic practice of ignoring the use of
altered documents or a contractor’s stated costs in

19a
Appendix B
determining whether bid prices are fair and reasonable.
ECF No. 156, PageID # 861.
III.

ANALYSIS.
A.

Writ of Coram Nobis.

The 1946 amendments to Federal Rule of Civil
Procedure 60(b) expressly abolished several common law
writs, including the writ of coram nobis. In United States
v. Morgan, 346 U.S. 502, 511, 74 S. Ct. 247, 98 L. Ed. 248
(1954), the Supreme Court held that district courts still
retain limited authority to issue common law writs such
as writs of coram nobis and audita querela in collateral
criminal proceedings.
These common law writs survive “only to the extent
that they fill ‘gaps’ in the current systems of postconviction
relief.” United States v. Valdez-Pacheco, 237 F.3d 1077,
1079 (9th Cir. 2001). Such writs are not available when
the claims raised would be cognizable in petitions under
28 U.S.C. § 2255.
A writ of coram nobis is “a highly unusual remedy,
available only to correct grave injustices in a narrow range
of cases where no more conventional remedy is applicable.”
United States v. Riedl, 496 F.3d 1003, 1005 (9th Cir. 2007).
It is distinguishable from a habeas petition, which is
available only when convicted defendants are in “custody.”
See Hensley v. Municipal Court, 411 U.S. 345, 349, 93 S.
Ct. 1571, 36 L. Ed. 2d 294 (1973); Jones v. Cunningham,
371 U.S. 236, 243, 83 S. Ct. 373, 9 L. Ed. 2d 285 (1963).

20a
Appendix B
A writ of coram nobis allows a petitioner to attack a
conviction when the petitioner has already finished his
sentence and is no longer in custody. See McKinney v.
United States, 71 F.3d 779, 781 (9th Cir. 1995).
To qualify for coram nobis relief, a petitioner must
establish all of the following: (1) a more usual remedy
is not available; (2) valid reasons exist for not having
attacked the conviction earlier; (3) there are adverse
consequences from the conviction sufficient to satisfy the
case or controversy requirement of Article III; and (4) the
error is of the most fundamental character. Hirabayashi v.
United States, 828 F.2d 591, 604 (9th Cir. 1987). “Because
these requirements are conjunctive, failure to meet any
one of them is fatal.” Matus-Leva v. United States, 287
F.3d 758, 760 (9th Cir. 2002).
1.

Shin Satisfies the First Three of the Four
Requirements for the Issuance of a Writ
of Coram Nobis.

Shin satisfies three of the four requirements for the
issuance of a writ of coram nobis.1

1. Shin’s plea agreement included a waiver of his right to
collaterally attack his sentence except when the attack is based on
a claim of ineffective assistance of counsel or any upward departure
by the court. See ECF No. 8. Although Shin’s petition for a writ of
coram nobis is a type of collateral attack, it does not challenge the
sentence. Instead, Shin attacks the underlying conviction, which
the Government concedes was not covered by the appeal waiver. See
ECF No. 100, PageID # 402.

21a
Appendix B
First, a more usual remedy is not available here.
Hirabayashi, 828 F.2d at 604. Shin has completed his
sentence and cannot seek relief under § 2255. See 28
U.S.C. § 2255 (providing that a “prisoner in custody . . .
may move the court which imposed the sentence to vacate,
set aside or correct the sentence”).
Second, Shin has suffered reputational, professional,
and social consequences as a result of his criminal
conviction. See ECF No. 91, PageID # 285. He states in
his Verified Petition that he has lost business opportunities
because of his conviction and that newspaper articles
published as recently as August 2015 continue to refer to
his felony conviction. See id., PageID # 297. The Ninth
Circuit has “repeatedly affirmed the presumption that
collateral consequences flow from any criminal conviction.”
Hirabayashi, 828 F.2d at 606.
Third, Shin has valid reasons for not having attacked
his conviction earlier. Although a petition for a writ of
coram nobis is not subject to a statute of limitations, the
petitioner must show that there were valid reasons that
the conviction was not attacked earlier. See id. at 60405. This requirement upholds a court’s gate-keeping in
barring claims that are unjustifiably late. Shin’s petition
is based on allegedly exculpatory statements that Choy
made to the Government, but that Shin only learned of
during a conversation with Choy in May 2015. See ECF
No. 91, PageID #s 294-95. Shin filed his petition in
September 2015. See id., PageID # 305. To the extent Shin
relies on Escobar and Lindsey II, those decisions issued
after Shin had filed the petition before this court. These

22a
Appendix B
circumstances provide valid reasons for Shin’s failure to
file his petition earlier.
2.

Shin Does Not Satisfy the Fourth Factor
(a Fundamental Error Rendering His
Conviction Invalid) Required for the
Issuance of a Writ of Coram Nobis.

The fourth factor requires an error of “the most
fundamental character.” Matus-Leva, 287 F.3d at 760. A
fundamental error is an error that renders the underlying
proceeding itself irregular and invalid. See Morgan, 346
U.S. at 502; Hirabayashi, 828 F.2d at 604; see also United
States v. George, 676 F.3d 249, 258 (1st Cir. 2012) (“[A]
n error of the most fundamental character must denote
something more than an error simpliciter” (citation and
internal quotations omitted)).
The Supreme Court and the Ninth Circuit have
identified a limited number of fundamental errors,
including ineffective assistance of counsel, see United
States v. Ifenatuora, 586 F. App’x 303, 304 (9th Cir. 2014),
cert. denied, 135 S. Ct. 1750, 191 L. Ed. 2d 713 (2015); a
federal criminal trial without defense counsel and without
a competent and intelligent waiver of counsel, see Morgan,
346 U.S. at 512; a guilty plea induced by a bargain that
was not kept, see Holloway v. United States, 393 F.2d 731,
732 (9th Cir. 1968); an erroneous jury instruction relieving
the prosecution of the burden of proving an essential
element of the offense, see United States v. McClelland,
941 F.2d 999, 1003 (9th Cir. 1991); and the nondisclosure
of exculpatory evidence in violation of Brady, see Ikbal v.
United States, 304 F. App’x 604, 606-07 (9th Cir. 2008).

23a
Appendix B
The only error Shin initially identified that falls
within the errors described above is what he alleges was
the Government’s Brady violation. According to Shin,
the Government failed to disclose key evidence that was
exculpatory and material to the defense for impeachment
purposes. See ECF No. 91, PageID # 243-45.
Generally, there are three components to a Brady
violation: “The evidence at issue must be favorable to the
accused, either because it is exculpatory, or because it is
impeaching; that evidence must have been suppressed by
the State, either willfully or inadvertently; and prejudice
must have ensued.” Strickler v. Greene, 527 U.S. 263,
281-82, 119 S. Ct. 1936, 144 L. Ed. 2d 286 (1999); see also
Turner v. United States, No. 15-1503, 137 S. Ct. 1885, 198
L. Ed. 2d 443, 2017 U.S. LEXIS 4041, 2017 WL 2674152, at
*8-9 (U.S. June 22, 2017) (focusing on whether petitioners
established prejudice and materiality of withheld evidence,
including whether there was a “reasonable probability
that, had the evidence been disclosed, the result of the
proceeding would have been different”); Hamilton v.
Ayers, 583 F.3d 1100, 1110 (9th Cir. 2009) (analyzing
alleged Brady violation and concluding defendant was
not prejudiced).
In United States v. Ruiz, 536 U.S. 622, 122 S. Ct. 2450,
153 L. Ed. 2d 586 (2002), the Supreme Court held that “the
Constitution does not require the Government to disclose
material impeachment evidence prior to entering a plea
agreement with a criminal defendant.” Id. at 633. See also
United States v. Eltringham, 550 F. App’x 398, 399 (9th
Cir. 2013). The Supreme Court explained:

24a
Appendix B
[I]mpeachment information is special in
relation to the fairness of a trial, not in respect
to whether a plea is voluntary (“knowing,”
“intelligent,” and “sufficient[ly] aware”). Of
course, the more information the defendant has,
the more aware he is of the likely consequences
of a plea, waiver, or decision, and the wiser that
decision will likely be. But the Constitution does
not require the prosecutor to share all useful
information with the defendant. Weatherford
v. Bursey, 429 U.S. 545, 559, 97 S. Ct. 837,
51 L. Ed. 2d 30 (1977) (“There is no general
constitutional right to discovery in a criminal
case”). And the law ordinarily considers a
waiver knowing, intelligent, and sufficiently
aware if the defendant fully understands the
nature of the right and how it would likely apply
in general in the circumstances--even though
the defendant may not know the specific detailed
consequences of invoking it. A defendant, for
example, may waive his right to remain silent,
his right to a jury trial, or his right to counsel
even if the defendant does not know the specific
questions the authorities intend to ask, who will
likely serve on the jury, or the particular lawyer
the State might otherwise provide.
Ruiz, 536 U.S. at 629-30 (second alteration in original)
Therefore, under Ruiz, the withholding of evidence
that was only impeaching would not rise to the level of a
Brady violation, let alone a Brady violation sufficient to

25a
Appendix B
justify the issuance of an extraordinary writ. Because Shin
elected to plead guilty pursuant to a plea agreement, he
can only establish a Brady violation by a showing that the
Government withheld exculpatory (not just impeaching)
evidence from him prior to his guilty plea.
Shin was convicted under 18 U.S.C. § 1001(a)(3) for
having made a false statement to the Government. Section
1001(a)(3) imposes criminal liability for “whoever, in any
matter within the jurisdiction of the executive, legislative,
or judicial branch of the Government of the United States,
knowingly and willfully . . . makes or uses any false writing
or document knowing the same to contain any materially
false, fictitious, or fraudulent statement or entry.” “A
conviction under § 1001 requires the government to prove
(1) a statement, (2) falsity, (3) materiality, (4) knowledge,
and (5) jurisdiction.” United States v. Peterson, 538 F.3d
1064, 1073 (9th Cir. 2008) (quoting United States v. Atalig,
502 F.3d 1063, 1066 (9th Cir. 2007)).
Shin does not dispute that he made a false statement
to the Government in submitting a project bid with
subcontractor quotes that were inflated by a total of
$380,000. See ECF No. 91, PageID #s 266-67. But Shin
says the Government committed a Brady violation by
failing to disclose that it could not have shown that the
inflated quotes were material, as required for a conviction
at trial. See id., PageID #s 279-81.
Under 18 U.S.C. § 1001(a)(3), the element of materiality
is evaluated under “an objective test, which looks at ‘the
intrinsic capabilities of the false statement itself, rather

26a
Appendix B
than the possibility of the actual attainment of its end.’”
Peterson, 538 F.3d at 1072 (quoting United States v.
Facchini, 832 F.2d 1159, 1162 (9th Cir. 1987)).
“To be material a statement need only have the
propensity or capacity to influence or affect an agency’s
decision.” United States v. Rodriguez-Rodriguez, 840 F.2d
697, 700 (9th Cir. 1988). “The agency need not rely on the
information in fact for it to be material.” Id. “Materiality,
therefore, is not measured by effect or magnitude.”
Facchini, 832 F.2d at 1162.
Materiality is a question for the trier-of-fact. See
United States v. Gaudin, 515 U.S. 506, 511-15, 115 S. Ct.
2310, 132 L. Ed. 2d 444 (1995).
As noted above, Shin’s focus on materiality has
undergone a change during the pendency of the petition
now before this court. Shin views cases like Peterson and
Rodriguez-Rodriguez as undercut by the recent Escobar
and Lindsey II decisions. Those decisions, issued in the
course of this case, have, according to Shin, changed the
law of materiality. This court is not persuaded by Shin’s
argument.
This court initially cited Lindsey I in considering
the Government’s appeal from a Magistrate Judge’s
ruling permitting Shin to depose Choy. See ECF No.
117, PageID # 608. The court’s citation, however, was
to a discussion in Lindsey I that relied on longstanding
Ninth Circuit law on materiality, not to any new discussion
unique to Lindsey I. That longstanding Ninth Circuit

27a
Appendix B
law was not, like Lindsey I, withdrawn and replaced by
Lindsey II. When the Ninth Circuit withdrew Lindsey
I and subsequently issued Lindsey II, which expressly
addressed the Supreme Court’s materiality analysis in
Escobar, this court allowed the parties to submit briefs
addressing Lindsey II.
Shin reads Escobar as having changed the wellestablished objective materiality standard to a subjective
materiality standard. Shin also reads Lindsey II as
acknowledging the applicability of a subjective materiality
standard in false statement cases. According to Shin,
Escobar creates a new legal defense that was not
previously available to him and thus creates a legal defect
in his conviction. Notably, this “legal defect” argument
goes more to the standard for a writ of audita querela,
discussed later in this order, than to the standard for a
writ of coram nobis.
Despite this court’s invitation to address how Lindsey
II affects either his coram nobis argument or his audita
querela argument, see ECF No. 150, Shin provides no
specifics as to how either Escobar or Lindsey II entitles
him to coram nobis relief. Instead, Shin says:
The question now becomes whether the
Escobar decision regarding the definition of
“materiality” is more appropriately raised in
a coram nobis or audita querela petition. If
Escobar is viewed as “clarifying” the definition
of “materiality,” then a writ of coram nobis is
more appropriate to raise the Escobar issue. If

28a
Appendix B
Escobar is viewed as “creating a new definition”
of “materiality,” then audita querela applies. In
a sense, it does not matter which way this Court
views the situation because SHIN has pled both
coram nobis and audita querela petitions.
ECF No. 157, PageID # 869. Shin had also previously
stated:
Although we believe that an argument can be
made that the [Escobar] case is applicable to
SHIN’s coram nobis petition, this Court has
already dismissed the coram nobis petition
(apparently considering [Escobar] based on
some of this Court[‘s] recent rulings), so we
will reserve this argument for a motion for
reconsideration if this Court dismisses SHIN’s
entire Petition and for possible appeal. If
[Escobar] does not apply to SHIN’s coram nobis
petition, we believe, as argued above, it applies
to his audita querela petition.
ECF No. 135, PageID # 753.
In his most recent supplemental memorandum, Shin
notes that he has previously asked this court to allow
him to amend his Verified Petition to “include allegations
relating to Escobar,” and complains that “so far, this Court
has ruled based on Lindsey I without consideration of the
applicability of Escobar to the Petition.” ECF No. 157,
PageID # 869. This court gave Shin an expanded word
limit and additional time to file his most recent optional
memorandum to supplement prior filings and to address

29a
Appendix B
the impact of recent court decisions on his coram nobis
petition. See ECF No. 155. It is unclear to this court why
Shin could not have raised specific arguments as to why
and how Escobar and Lindsey II entitle him to a writ of
coram nobis.
This court nevertheless considers here whether either
Escobar or Lindsey II affects Shin’s petition for a writ of
coram nobis.
In Escobar, the Supreme Court discussed materiality
and what types of evidence might be relevant to proving
materiality depending on the specific facts of a case. See
Escobar, 136 S. Ct. at 2003-04. Escobar concerned claims
arising under the False Claims Act. A patient had died
while being treated at a mental health clinic by various
unlicensed and unsupervised staff in alleged violation of
state Medicaid regulations. Id. at 1995-97. The Supreme
Court examined when liability could be imposed under the
FCA. Id. at 1996. Specifically, the Supreme Court stated,
What matters is not the label the Government
attaches to a requirement, but whether the
defendant knowingly violated a requirement
that the defendant knows is material to
the G over n ment ’s pay ment decision. A
misrepresentation about compliance with a
statutory, regulatory, or contractual requirement
must be material to the Government’s payment
decision in order to be actionable under the
False Claims Act.
Id.

30a
Appendix B
The Cou r t noted that the FCA def inition of
“materiality” used language that had been employed to
define that term in other federal fraud statutes. Id. at
2002. For example, the Court noted that Neder v. United
States, 527 U.S. 1, 119 S. Ct. 1827, 144 L. Ed. 2d 35 (1999),
and Kungys v. United States, 485 U.S. 759, 108 S. Ct. 1537,
99 L. Ed. 2d 839 (1988), had used the following definition to
interpret the relevant federal fraud statutes: “[T]he term
‘material’ means having a natural tendency to influence, or
be capable of influencing, the payment or receipt of money
or property.” Escobar, 136 S. Ct. at 2002. With respect
to the standard that should be applied to determining
materiality in Escobar, the Supreme Court stated, “Under
any understanding of the concept, materiality ‘look[s] to
the effect on the likely or actual behavior of the recipient
of the alleged misrepresentation.’” Id. (quoting 26 R.
Lord, Williston on Contracts § 69:12, p. 549 (4th ed. 2003)
(Williston)). This standard is consistent with the objective
evaluation of materiality in Neder and Kungys.
The Supreme Court then concluded that, in the
FCA context, the Government’s provision of proof as to
materiality varied depending on the specific facts of the
case:
In sum, when evaluating materiality under
the False Claims Act, the Government’s
decision to expressly identify a provision as
a condition of payment is relevant, but not
automatically dispositive. Likewise, proof of
materiality can include, but is not necessarily
limited to, evidence that the defendant knows

31a
Appendix B
that the Government consistently refuses to
pay claims in the mine run of cases based on
noncompliance with the particular statutory,
reg ulator y, or contractual requirement.
Conversely, if the Government pays a particular
claim in full despite its actual knowledge that
certain requirements were violated, that is
very strong evidence that those requirements
are not material. Or, if the Government pays a
particular type of claim in full despite actual
knowledge that certain requirements were
violated, and has signaled no change in position,
that is strong evidence that the requirements
are not material.
Id. at 2003-04. The Court thus expressly disagreed with
the view that “any statutory, regulatory, or contractual
violation is material so long as the defendant knows that
the government would be entitled to refuse payment were
it aware of the violation.” Id. at 2004.
Shortly after Escobar was published, the Ninth Circuit
decided United States v. Lindsey (Lindsey I), 827 F.3d
865 (9th Cir. 2016). Lindsey I involved wire fraud counts
arising in the mortgage loan context. The defendant had
challenged the materiality of false responses to lender
requests. The Ninth Circuit adopted a “bright-line test,”
holding “that when a lender requests specific information
in its loan applications, false responses to those specific
requests are objectively material for purposes of proving
fraud.” Id. at 871. The Ninth Circuit ultimately withdrew
Lindsey I. See United States v. Lindsey (Lindsey

32a
Appendix B
I), 854 F.3d 1047 (9th Cir. 2017) (granting rehearing
and withdrawing published opinion and companion
memorandum disposition in Lindsey I). In United States
v. Lindsey (Lindsey II), 850 F.3d 1009 (9th Cir. 2017), the
Ninth Circuit deleted the prior reference to a “bright-line”
test under which the fact of an inquiry rendered a false
response material. But this deletion did not signal the
adoption of a subjective standard.
In Lindsey II, the Ninth Circuit addressed the district
court’s exclusion of evidence offered by the defendant to
prove that false statements in loan applications were not
material to a lender’s decision-making. See id. at 1013-18.
The defendant had offered evidence at trial that specific
individual lenders would have approved particular loans
even knowing about false statements on loan applications.
See id. at 1014. The district court excluded that evidence,
and the Ninth Circuit concluded that evidence about
particular lending decisions, as opposed to evidence of
how the lending industry typically treated statements
and requirements on loan applications, were properly
excluded. Id. at 1015-18.
Escobar does not say that a subjective standard now
applies to any evaluation of the materiality of a false
statement. Escobar actually relies on objective definitions
of “materiality” that the Supreme Court observed have
roots in “common-law antecedents” in the fraud context.
See Escobar, 136 S. Ct. at 2002 (quoting Neder and
Kungys).
While Escobar noted that, “if the Government
regularly pays a particular type of claim in full despite

33a
Appendix B
actual knowledge that certain requirements were violated,
and has signaled no change in position, that is strong
evidence that the requirements are not material,” id. at
2003-04, that statement provided an example of the kind
of evidence relevant to proving the materiality of a false
statement in the context of the False Claims Act. See id.
Shin is stretching that statement when he contends that
Escobar altered the decades-old objective standard for
evaluating the materiality of a false statement. Shin’s
error is made clear by the Ninth Circuit in Lindsey II.
In Lindsey II, the Ninth Circuit emphasized that the
“element of materiality is evaluated under an objective
test, in which we must examine ‘the intrinsic capabilities
of the false statement itself, rather than the possibility
of the actual attainment of its end.” 850 F.3d at 1014.
The Ninth Circuit affirmed Lindsey’s conviction, noting
that “[a] false statement is material if it objectively had
a tendency to influence, or was capable of influencing, a
lender to approve a loan.” Id. at 1015 (emphasis in original)
(citations omitted). Looking to some of the “common-law
antecedents” relied on by the Supreme Court in Escobar,
the Ninth Circuit stated, “In general a false statement is
material if it has ‘a natural tendency to influence, or [is]
capable of influencing, the decision of the decisionmaking
body to which it was addressed.’” Id. at 1013-14 (alteration
in original) (quoting Neder, 527 U.S. at 16).
Lindsey II carefully distinguished the “subjective
effect” on a victim from the “intrinsic capabilities of a
statement to influence” a decision-maker. Id. at 101516. The Ninth Circuit observed that evidence of a

34a
Appendix B
particular lender’s negligence or the intentional conduct
of a particular lender in disregarding false statements
had “little relevance to whether those statements are
intrinsically able to influence a decision.” Id. at 1015.
“[M]ateriality is an objective element, and an absence of
reliance does not affect its presence.” Id. at 1015-16. That
is, “a victim’s intentional disregard of relevant information
is not a defense to wire fraud and thus evidence of such
disregard is not admissible as a defense to mortgage
fraud.” Id. at 1016.
Lindsey II indicates that it is evidence of a widespread
practice, not of the individual behavior of a specific
decision-maker, that may establish materiality under
an objective standard. Id. When the Government is the
victim of a falsehood, the Government may be seen as
“represent[ing] the entire market for issuing federal
government contracts.” Id. at 1017. “The weight the
Government gives to a particular statutory, regulatory,
or contractual requirement is analogous not to the weight
an individual lender gives to a statement on its loan
application, but rather the weight the entire mortgage
industry gives to that type of statement.” Id. This
distinction underscores the objective materiality standard
under which “materiality measures natural capacity to
influence, not whether the statement actually influenced
any decision.” Id.
The reasoning of Escobar and Lindsey II makes it
clear that materiality continues to be measured under
an objective standard. Shin conflates this objective
standard with the types of evidence that may be relevant

35a
Appendix B
and admissible in certain contexts. To address what
Shin argues, this court turns now to how the objective
materiality standard applies to the facts of the present
case.
In focusing on materiality, Shin relies heavily on
Choy’s “clarification” statement and his statements
in a later conversation that Shin recorded. Shin says
these statements show that the Government withheld
exculpatory evidence that Choy “was not a competent or
qualified witness to testify about the issue of ‘materiality.’”
See ECF No. 91, PageID # 244. Shin argues that Choy’s
post-sentencing statements show that Choy, far from
helping the Government prove its case, would have
“negated the ‘materiality’ element of the False Statement
charge.” See id. Shin adds that this evidence also reveals
that “Choy was an exculpatory witness regarding the issue
of ‘materiality’” because Choy’s comments show that the
false statement was not material to him. See id.
Choy’s “clarification” statement reads:
(1) Clarification as to my role in this contract. I
am not a contracting official nor do I have the
authority to revise a contractual requirement.
My task was to review the contractor’s proposal
to ensure that the contractor scope of work is in
accordance with the Governments scope of work
and provide an opinion on a fair and reasonable
price for the Government.
(2) On 14 August 2003 despite the fact that

36a
Appendix B
the contractor’s proposal was with range 6%
($148,903) of the Government estimate (GE
$2,211,250 vice contractor proposal $2,360,153),
I was requested by the contracting administer
to review the contractor’s proposal for technical
compliance (i.e. Contractor’s scope of work) and
provide an opinion on a fair and reasonable
price. Since the contractor proposal consisted
of aggregated pricing it was difficulty to
determine if the contractor proposal was in
practicable in line eh Government scope of work,
I requested to the contracting administer if the
contractor can provide additional breakdown of
their proposal.
(3) On September 8, 2003, I attended a meeting
along with the contracting administer in which
Mr. Patrick Shin explained to the Government
that based on this contractor he had a zero
coefficient for this project. I recall stating that I
understand that Mr. Shinn needed to “roll” this
overhead and profit into the line items since he
had a zero coefficient but that is a contractual
issues and not a technical issue.
(4) My Government estimate was prepared
w ith a contractor coefficient. It was my
understanding during this time that the
contractor’s coefficient included their overhead
and profit so to not include a coefficient would
not be fair and would be unreasonable. I was
surprised by the fact that this project had a

37a
Appendix B
zero coefficient and turned this issue to the
contracting officer, the authorized person, to
resolve.
ECF No. 91-2, PageID # 307 (grammar and spelling as
in original).
Shin characterizes Choy’s “clarification” statement
as exculpatory, treating it as an admission by Choy
that he could not have been a materiality witness for
the Government. But this argument assumes that the
Government had no other way of proving materiality. As
it turns out, Choy was not the only source of materiality
evidence.
Even assuming the materiality analysis focuses on
an individual’s mindset, as Shin contends it should, the
Government could have used testimony by Annette Ching,
the contracting officer for the project bid, on the issue of
whether Shin’s statement was material to the decision to
award the job to JHL. Ching’s declaration indicates the
type of testimony she may have given on the Government’s
behalf had Shin’s case gone to trial. See ECF No. 100-3.
Ching states that she “was assigned responsibility for
negotiating and recommending the award of a task order
contract for the overhaul of Pump #2, Dry Dock #4 at
the Pearl Harbor Naval Shipyard.” See id., PageID #s
429-30. She adds:
I later learned from criminal investigators that
the HSI Electric and Conhagen quotations given
to me by Shin had been inflated by $380,000, by

38a
Appendix B
altering the original quotations. Had I known
that the quotations were altered and inflated,
I would have recommended against the award
of the contract to JHL. I would have been
concerned both about the actual costs incurred
by JHL, and about the integrity of the company.
See id., PageID # 431.
Ching also states:
Regardless of the coefficient on the job,
I wanted to know the actual costs of the
contractor for purposes of deciding whether
to award the contract and at what price. Choy
would be responsible for determining whether
the proposal was technically acceptable. I
would be responsible for determining whether
the price was fair and reasonable. The true
subcontractor costs charged to JHL would have
been a factor Choy and I could have considered
in making our decisions.
See id. Assuming that, as Shin argues, an individual’s
reaction is relevant to establishing materiality, testimony
by Ching at trial that JHL’s actual costs would have
influenced her decision as to whether the proposed price
was fair, and that she would not have recommended a
contract with JHL had she known that the costs were
inflated, could have established that the inflated quotes
had the propensity or capacity to influence or affect the
Navy’s award of the job. See Rodriguez-Rodriguez, 840
F.2d at 700.

39a
Appendix B
Even if, for some reason, the Government could not
have called Ching as a fact witness, it could conceivably
have called her as an expert witness regarding what the
Navy considers in its decision to award such projects,
and whether statements such as Shin’s would normally
be material to the Navy’s decision-making process. Shin
himself acknowledges that materiality may be proven
through an expert witness. See ECF No. 91, PageID # 268
(“Materiality is best shown by the testimony of a witness,
generally those who make the decisions on the application
or statements in the particular case, concerning the
influence that defendant’s allegedly false statement might
have had on the ultimate result of the transaction. Such
a witness may be an expert witness or a fact witness, or
both.” (quoting Dep’t of Just. Manual Resource Manual
Title 9 Number 911)).
In its earlier discovery order, this court noted that,
alternatively or additionally, the Government could have
relied on other witnesses like Robert Hokama to testify
regarding materiality. See ECF No. 117, PageID # 613.
While not involved in the negotiations in which Shin made
his false statement, Hokama was the Director of the
Procurement Operations Division for Pearl Harbor and
Ching’s supervisor at the time Shin was negotiating the
contract on behalf of JHL. See ECF No. 48-1.
A fter this court issued its order referring to
possible testimony by Hokama concerning materiality,
Shin filed several memoranda indicating that Hokama
had recently told Shin’s counsel that he would have
approved JHL’s proposal even had he known it included

40a
Appendix B
falsified subcontractor amounts. Shin followed up with
declarations by Hokama. This court recognizes that the
Government would not, after all, have called Hokama as
a materiality witness at trial if Government attorneys
had known that he would testify in accordance with his
recent declarations. Shin’s counsel conceded, however,
that he had no information suggesting that Hokama ever
communicated the content of his declarations to anyone
before Shin pled guilty. In the absence of any statement
by Hokama about his hypothetical approval of a contract
in the face of knowledge that it included falsities, the
Government could have contemplated calling him as a
materiality witness. More importantly, Hokama’s earlier
silence on the subject means that the Government’s
failure to disclose his view could not serve as the basis
of a Brady violation. The Government has no duty to
disclose exculpatory “evidence” that is simply an unspoken
hypothetical locked in an individual’s mind.
In any event, there is no evidence that Hokama speaks
for the Government as a whole when he says he would not
have been affected by Shin’s statements even knowing
they were false. As a contracting officer, Hokama had
decision-making authority that is more easily analogized
to the decision-making authority that an individual loan
officer or particular lender may have had in Lindsey II,
not to the lending industry as a whole. As noted earlier,
Lindsey II counsels that it is the practice of the industry
as a whole that is relevant to materiality. 850 F.3d at
1017. Even if Hokama as an individual decision-maker
would have condoned Shin’s false statements, Hokama’s
attitude would not make the false statements material. As

41a
Appendix B
the Ninth Circuit said in Lindsey II, “Two wrongs do not
make a right, and lenders’ negligence, or even intentional
disregard, cannot excuse another’s criminal fraud.” Id.
at 1014.
This is consistent with Maslenjak v. United States,
No. 16-309, 137 S. Ct. 1918, 198 L. Ed. 2d 460, 2017 U.S.
LEXIS 4042, 2017 WL 2674154, at *8 (U.S. June 22, 2017),
in which the Supreme Court discussed the materiality
of false statements made to individual government
decision-makers in the context of immigration law. Id. at
*8. Divna Maslenjak, who had immigrated to the United
States from Bosnia in the 1990s as a refugee and who was
later naturalized, was charged with having “procure[d],
contrary to law, naturalization” in violation of 18 U.S.C.
§ 1425(a). Id. at *4. Maslenjak was accused of having
violated § 1425(a) by allegedly knowingly making a false
statement under oath in a naturalization proceeding in
violation of 18 U.S.C. § 1015(a). Id.
With respect to false statements made to government
officials, the Supreme Court said that “objective legal
criteria” determine “whether a false statement sufficiently
altered [] processes [so] as to have influenced an award
of citizenship.” Id. at *8. The Supreme Court observed
that government officials must apply immigration laws
“faithfully-- granting naturalization when the applicable
criteria are satisfied, and denying it when they are not.” Id.
(citing Kungys, 485 U.S. at 774 n.9). “The entire system,
in other words, is set up to provide little or no room for
subjective preferences or personal whims. Because that is
so, the question of what any individual decisionmaker might

42a
Appendix B
have done with accurate information is beside the point.”
Id. The Supreme Court further stated that a defendant
in this situation “should neither benefit nor suffer from a
wayward official’s deviations from legal requirements.”
Id. That is, the actions of a particular individual official
should not affect the analysis of whether a false statement
is material. Instead, the inquiry is “framed in objective
terms: To decide whether a defendant acquired citizenship
by means of a lie, a jury must evaluate how knowledge of
the real facts would have affected a reasonable government
official properly applying naturalization law.” Id.
In Escobar, the Supreme Court looked to the
Government as a whole. Hokama’s position was akin to
that of an immigration official determining whether an
applicant should or should not be granted naturalization
status. Because our system of Government leaves “little
or no room for subjective preferences or personal whims,”
what Hokama might have done if he had known of Shin’s
lies is “beside the point” for materiality purposes. See id.
Under the analysis in Maslenjak, Shin should “neither
benefit nor suffer” from Hokama’s subjective preferences.
The inquiry into the materiality of a false statement
continues to be measured under an objective standard.
This court has read Shin’s contention that he did not
know prior to his guilty plea that the Government had
any materiality witness besides Choy. Shin appears to be
claiming that this somehow means that the Government
may not rely on other materiality evidence. See ECF No.
115-1, PageID # 578. It is far-fetched that Shin, who, in
his own words, “was experienced in federal government
contracting matters,” see ECF No. 91, PageID # 249; see

43a
Appendix B
also id., PageID #s 245-46, did not know that Ching might
have had something to say about Shin’s false statements.
But even if Shin thought Choy was the sole possible
witness on materiality, the Government was not bound
by Shin’s assumptions. The Government was and is free
to present all the evidence in its possession to establish
that Shin’s false statements were material.
It is not the case that, before Shin pled guilty, the
Government was required to outline for Shin which
person or persons might provide evidence at trial going
specifically to materiality or to any other element of a
false statement charge. Nor does Shin point to anything
suggesting that the Government misled him into believing
that its only source of materiality evidence was Choy. Cf.
Ruiz, 536 U.S. at 632 (“Consequently, the Ninth Circuit’s
requirement could force the Government to abandon
its ‘general practice’ of not ‘disclos[ing] to a defendant
pleading guilty information that would reveal the identities
of cooperating informants, undercover investigators, or
other prospective witnesses.’”). Indeed, Shin’s counsel
admitted during a telephone conference with the court
on August 23, 2016, that the Government never expressly
identified Choy as its materiality witness. See ECF No.
125. According to Shin’s counsel, Choy’s role in the Navy’s
review of the JHL bid supported Shin’s assumption that
Choy was the Government’s materiality witness. But any
assumption by Shin that Choy was the Government’s only
possible materiality witness was unjustified.
It also bears noting that, even assuming Choy’s
individual mindset were as critical as Shin contends, Shin
overstates what Choy told Shin after Shin was sentenced.

44a
Appendix B
Choy never admitted that he could not have testified
regarding the materiality of Shin’s statement. Although
Choy believed that, because he was not the contracting
authority, he could not testify about contractual issues
such as whether or not JHL should have been awarded
the contract in spite of Shin’s false statement, Choy might
still have testified about a number of issues relevant to
materiality. For example, Choy could have testified as
to why he asked JHL to provide subcontractor quotes;
whether including the Pump # 2 work in JHL’s JOC was
typical or a mistake; what type of information Ching
had requested in regards to the JHL bid; what type of
technical assistance Choy had given Ching regarding
the JHL bid; and a host of other things not requiring
testimony as to how Choy might have decided whether to
award the project to JHL. Choy’s insistence that he could
not testify as to decision-making issues versus “technical”
issues relates only to the scope of his testimony. That
insistence does not go to whether he had anything at all
to say about materiality, assuming, as Shin contends, that
Choy’s individual mindset is relevant to materiality.
Choy was a potential Government witness, not a
Government lawyer. Any so-called “admission” by him
about what he was legally able to say could not have
precluded a Government lawyer from calling him to testify
about materiality.
Shin also argues that statements in Choy’s declaration
and recorded conversation indicate that Choy believed
Shin’s misrepresentations were immaterial. Even if Choy’s
belief were relevant here, there is no such indication.
During the recorded conversation, Shin pressed Choy

45a
Appendix B
to admit that he had told Government prosecutors that
the inflated quotes did not matter. But Choy appears
to have instead repeatedly explained that he lacked the
authority to decide such contracting issues. Shin asked,
“Did you ever explain to [the Government prosecutor]
about coefficient and the--he thought that--you know, roll in
profit and overhead[?]” See ECF No. 102-3, PageID # 481.
Choy answered, “I know that was the issue. The issue--and
that wasn’t for me--that’s why it’s a contracting issue. That
wasn’t for me to decide whether, you know, he bid--Nan,
Inc. [Shin’s company] bid--but realized that he needed to
make profit and overhead.” See id., PageID # 482.
Shin again pressed Choy:
Shin: So when you talked to, like, [the
Government prosecutor] and these government
people, you explained there’s no coefficient and
we had to roll it in profit and overhead and--but
do they still understand when you were talking
to them?
Choy: So I told them that, but I told them I
think--because it’s an ACQ issue, acquisition
issue, that’s not for me to decide whether they
going let Nan, Inc. roll into the--into the-Shin: Roll in the coefficient?
Choy: Yeah, yeah. That’s not my call. I don’t
have the authority to make that kind of call.
Shin: Uh-huh.

46a
Appendix B
Choy: So I remember telling them about
the zero percent coefficient. I remember
telling them, “Does it have that?” So I kept
--I remember telling them that it’s not my job
responsibility to--do that, it’s acquisition’s.
See id., PageID #s 482-83. See also id., PageID # 481
(discussing contract question about whether Government
could give zero coefficient contract to Nan, Inc., and
noting, “I’m not the one that--I’m not supposed to decide”
and “I don’t know” about contracting issues); id., PageID
# 482 (“[T]hat’s not for me to decide. That’s ACQ guys. I
just over here to review the technical aspect and say that,
oh, does this make sense kind of deal, right.”).
Choy’s belief that this issue fell outside his duties is
not an indication as to materiality at all.
Shin contends that the following statement by
Choy also indicates that Choy would testify that Shin’s
statement was not material to him:
It was my understanding during this time
that the contractor’s coefficient included their
overhead and profit so to not include a coefficient
would not be fair and would be unreasonable.
I was surprised by the fact that this project
had a zero coefficient and turned this issue to
the contracting officer, the authorized person,
to resolve.
See ECF No. 91, PageID # 273 (numbers omitted); see
also ECF No. 91-2, PageID # 307. Choy also recalled

47a
Appendix B
telling prosecutors “[a]bout that zero percent coefficient,
yeah, who the contract was awarded and that--the zero
percent coefficient and it needed to go to overhead and
profit. I mean how else he going make money, right?” See
ECF No. 102-3, PageID # 487.
Here, too, Shin treats Choy’s statements as asserting
more than they do. Choy was expressing his understanding
that it would be unreasonable for the Navy to require a
private contractor like JHL to perform a job for free. Choy
appears to have been telling Shin that he understood to
some extent Shin’s motive for inflating the subcontractor
bids. But this is a far cry from suggesting that falsified
subcontractor prices were immaterial to him, much less
to the Navy, or that Choy communicated such a thought to
anyone. Regardless of whether Choy thought a contractor
should make some profit, an inability to make a profit
absent a false statement to the Government is not a
defense to a charge under 18 U.S.C. § 1001. Thus, whatever
Choy may have said to Government prosecutors on this
subject, there is no reason that, before Shin pled guilty,
the prosecutors had to relay to Shin Choy’s belief that a
contractor was entitled to make a profit.
Even assuming that Choy had earlier told the
Government what he later told Shin in his clarification
statement and the recorded conversation, these statements
did not constitute exculpator y evidence that the
Government improperly withheld from Shin prior to his
guilty plea. Nor does Shin present any reason for this
court to assume that, applying an objective materiality
standard, Shin’s false statements were not material.

48a
Appendix B
Having failed to establish there was an actual fundamental
error in his conviction, Shin is not entitled to a writ of
coram nobis.
3.

Shin Is Not Entitled to an Evidentiary
Hearing in Support of a Writ of Coram
Nobis.

Shin argues that he is entitled to an evidentiary
hearing if this court does not grant his petition for writ
of coram nobis outright. See ECF No. 91, PageID # 301.
“Whether a hearing is required on a coram nobis
motion should be resolved in the same manner as habeas
corpus petitions.” United States v. Taylor, 648 F.2d 565,
573 n.25 (9th Cir. 1981). See also Korematsu v. United
States, 584 F. Supp. 1406, 1412 (N.D. Cal. 1984) (“§ 2255
considerations apply [in a coram nobis proceeding] in
determining whether an evidentiary hearing is required”).
A petitioner “is entitled to an evidentiary hearing on his
claim ‘[u]nless the motion and the files and records of
the case conclusively show that the prisoner is entitled
to no relief.’” Frazer v. United States, 18 F.3d 778, 781
(9th Cir. 1994) (quoting 28 U.S.C. § 2255). “In deciding
whether to grant an evidentiary hearing, a federal court
must consider whether such a hearing could enable an
applicant to prove the petition’s factual allegations, which,
if true, would entitle the applicant to federal habeas relief.”
Schriro v. Landrigan, 550 U.S. 465, 474, 127 S. Ct. 1933,
167 L. Ed. 2d 836 (2007).
Shin’s request for an evidentiary hearing is deficient
in failing to show how such a hearing would establish the

49a
Appendix B
Government’s inability to prove materiality or a Brady
violation in the form of the Government’s failure to disclose
such an alleged inability.
This court addressed a similar inquiry in determining
whether Shin had good cause to depose Choy and Ching.
See ECF No. 117. Under the good cause standard applicable
to the discovery ruling, the court was required to examine
whether the “‘specific allegations before the court show
reason to believe that the petitioner may, if the facts are
fully developed, be able to demonstrate that he is . . .
entitled to relief.’” Id., PageID # 605 (quoting Pham v.
Terhune, 400 F.3d 740, 743 (9th Cir. 2005)). Consistent with
the above analysis regarding whether the Government
withheld exculpatory evidence regarding Choy, this court
ruled that Shin’s allegations, together with the evidence
Shin pointed to in support of his allegations, gave this
court no reason to believe that deposing Choy would lead
to evidence demonstrating that the Government had
withheld exculpatory evidence from Shin before he pled
guilty. See id., PageID #s 607-22. With regard to Ching,
Shin never alleged that she provided any exculpatory
evidence to the Government. Thus, this court determined
that Shin had failed to show good cause to depose Ching
as well. See id., PageID #s 623-25.
Once it denied Shin a chance to depose Choy or Ching,
this court could not discern from the record what further
evidence Shin might offer in support of his request for a
writ of coram nobis. The only fundamental error alleged
by Shin involved the Government’s purported withholding
of exculpatory statements by Choy allegedly relating to

50a
Appendix B
materiality. Nevertheless, in an abundance of caution, this
court gave Shin a further opportunity to explain whether
he continued to want an evidentiary hearing. See id.,
PageID #s 625-26. Shin filed a request for an evidentiary
hearing that included an offer of proof regarding what
would be presented at an evidentiary hearing:
Patrick Shin will testify as set forth in his
Petition that, to him, the key witness in the
entire case as to “materiality” was Wes Choy
because Choy was the Government employee
who prepared the Government Estimate (GE)
and asked for the subcontractor quotes. Shin
will testify that, had he known that once Choy
found out about the zero coefficient problem,
Choy “washed his hands” of the contract
and turned all issues over to the contracting
officers, he would not have pled guilty.
Rober t Hoka ma w i l l t est i f y ( ba sed on
Petitioner’s counsel’s discussion with him
yesterday) that if the Pump #2 contract had
reached his desk with the information that
Petitioner had changed the subcontractor
bids because of the zero coefficient problem,
he still would have approved the contract, i.e.,
the subcontractor quotes would not have been
“material” to him because the JHL proposal
was close to the GE. He will also testify he
was the contracting officer with final authority
to approve the contract over Annette Ching
and Brian Sekiguchi. (This Court speculated

51a
Appendix B
at 22-23 of its Order that Mr. Hokama might
be a witness for the Government on the issue
of “materiality.” This is clearly not the case.)
Br ian Sek ig uchi w i ll t esti f y ( based on
Petitioner’s counsel’s discussion with him
yesterday) about the inappropriate assignment
of the Pump #2 contract to the JHL JOC, as
he set out in his Declaration for sentencing. He
will testify that if the contract had reached his
desk with the information that Petitioner had
changed the subcontractor bids, he would have
passed the contract on to Robert Hokama for
final decision.
Wes Choy will testify as set forth in Petitioner’s
Petition. To the extent that he tries to deny
the statements he made to Petitioner, his
tape recorded statement will be introduced
into evidence. Choy will also admit that his
Government Estimate (GE) for the contract
cost was reasonable with consideration of a
reasonable coefficient.
Annette Ching will testify that she was not
the ultimate deciding authority regarding
the approval of the contract. She may testify
that she would recommend not approving the
contract because of Petitioner’s falsifications,
but she will have to admit that the final
authorities were Brian Sekiguchi and Robert
Hokama.

52a
Appendix B
ECF No. 119, PageID #s 632-34.
Even taking Shin’s offer of proof as an accurate
summary of the testimony that Shin would present, this
court sees no reason to conduct an evidentiary hearing.
The offer of proof shows that the evidence sought by Shin
either duplicates evidence already in the record, or would
not entitle him to the relief he seeks. The offer of proof
states that Shin would “testify as set forth in his Petition,”
and that “Wes Choy will testify as set forth in Petitioner’s
Petition.” Id. Far from demonstrating any inadequacy
in the record with respect to Choy and Shin, Shin’s
offer of proof only proposes to corroborate statements
Choy made in his clarification statement and the taped
conversation. See Korematsu, 584 F. Supp. at 1412 (noting
that evidentiary hearing may be afforded “when a palpable
claim is raised by the petitioner and there is an inadequate
record or disputed factual issues”). As discussed above,
however, even if the court accepted these statements
as true, they would not be sufficient to show that the
Government withheld exculpatory information from Shin.
Furthermore, the offers of proof for Hokama,
Sekiguchi, and Ching are irrelevant for the purpose of
a coram nobis petition. During the telephone conference
in which Shin’s request for an evidentiary hearing was
discussed, Shin’s counsel admitted that he had no reason
to believe that any of these witnesses had told anyone
before Shin pled guilty that they would have approved the
contract even had they known that Shin had falsified the
subcontractor quotes. Shin’s counsel conceded that Shin’s
petition was focused solely on the Government’s failure

53a
Appendix B
to disclose what Shin says were exculpatory statements
by Choy.
As this court has already noted, Shin’s offer of proof
concerning Hokama indicates that Shin wants to present
newly discovered evidence from Hokama that Shin’s
misrepresentations were immaterial to him. This new
evidence is not probative of any fundamental error. See
Moody v. United States, 874 F.2d 1575, 1577 (11th Cir.
1989) (“A claim of newly discovered evidence relevant only
to the guilt or innocence of the petitioner is not cognizable
in a coram nobis proceeding.”). With respect to Ching, it
appears from Shin’s offer of proof that he wants to elicit
testimony that she was not the ultimate decision-maker
and therefore could not testify as to materiality. This
court has discussed the materiality issue at length earlier
in this order. In short, because materiality continues to
be evaluated under “an objective test, which looks at ‘the
intrinsic capabilities of the false statement itself, rather
than the possibility of the actual attainment of its end,’”
Peterson, 538 F.3d at 1072 (quoting Facchini, 832 F.2d at
1162), materiality evidence can be provided by individuals
other than an ultimate decision-maker.
In many cases, an ultimate decision-maker relies on
individuals like Ching and Choy to evaluate a proposal
or statement and to make recommendations that guide
the final decision. See, e.g., U.S. ex rel. Longhi v. Lithium
Power Techs., Inc., 513 F. Supp. 2d 866, 888 (S.D. Tex.
2007) (rejecting argument that Government could not
rely on witness to establish materiality because he was
not ultimate decisionmaker regarding award of contract).

54a
Appendix B
Individuals may provide evidence as to materiality to the
extent that their knowledge and experience allow them
to testify regarding whether a particular statement
has “the propensity or capacity to influence or affect an
agency’s decision.” Rodriguez-Rodriguez, 840 F.2d at
700. As discussed above, Ching could even have testified
as an expert witness regarding materiality. Shin does not
show that testimony by Ching would somehow support the
issuance of a writ of coram nobis. Nor does Shin suggest
how the evidentiary hearing he requests would show that
the Government as a whole disregards false statements in
circumstances analogous to those presented by this case.
In summary, Shin fails to show that an evidentiary
hearing would support either a Brady violation or an
absence of materiality. Even assuming that the witnesses
Shin identifies would testify in accordance with his offer
of proof, none of the witnesses would provide evidence
relevant to the narrow issue of whether exculpatory
material was withheld, creating a fundamental error in
the underlying proceeding. See Ybarra v. United States,
461 F.2d 1195, 1200 (9th Cir. 1972) (affirming denial of
evidentiary hearing when nothing could be gained by
granting hearing). And under the objective materiality
standard that applies even after Escobar and Lindsey
II, none of the matters Shin says he might present would
show that Shin’s false statements were immaterial. See
id. The petition, file, and records of this case conclusively
show that Shin is not entitled to coram nobis relief. Shin
fails to show that an evidentiary hearing could change
that outcome.

55a
Appendix B
B. Writ of Audita Querela
Shin alternatively seeks a writ of audita querela that
vacates his conviction. See ECF No. 91, PageID #s 30405; ECF No. 135, Page ID #s 744-46.
“The writ of audita querela, meaning literally ‘the
complaint having been heard,’ is a common law writ used
to attack a judgment that was correct when rendered, but
which later became incorrect because of circumstances
that arose after the fact.” United States v. Fischer, No.
3:01-CR-00263-HA, 2014 U.S. Dist. LEXIS 153372,
2014 WL 5473586, at *3 (D. Or. Oct. 28, 2014) (quoting
Carrington v. United States, 503 F.3d 888, 890 n.2 (9th
Cir. 2007)).
The Supreme Court has limited the availability of this
writ to “extraordinary” cases presenting circumstances
compelling its use “to achieve justice.” Morgan, 346 U.S.
at 511. “The writ is similar, but not identical, to the writ of
error coram nobis; audita quer[e]la is directed against the
enforcement, or further enforcement, of a judgment which,
when rendered, was just and unimpeachable, whereas
coram nobis attacks the judgment itself.” Fischer, 2014
U.S. Dist. LEXIS 153372, 2014 WL 5473586, at *3.
In Doe v. INS, 120 F.3d 200 (9th Cir. 1997), the Ninth
Circuit ruled that the writ is unavailable for parties who
seek it purely for equitable relief. With audita querela
unavailable on purely equitable grounds, the Ninth
Circuit questioned without deciding whether any situation
existed in which the writ of audita querela would be the

56a
Appendix B
appropriate remedy. See id. at 204 n.5 (“[W]ith section
2255 and coram nobis available to challenge the lawfulness
of conviction, several courts have questioned, without
deciding, whether audita querela survives at all.”). See
also United States v. Johnson, 962 F.2d 579, 583 (7th
Cir. 1992) (questioning “the extent of the viability of
audita querela given the availability of coram nobis and
§ 2255”); United States v. Reyes, 945 F.2d 862, 866 (5th
Cir. 1991) (noting that “audita querela seems to add little,
if anything, to the current scheme of postconviction relief
afforded by section 2255 and the writ of coram nobis”).
Not every court considers the writ of audita querela to
have been eliminated. In Erickson v. United States, 757 F.
Supp. 2d 1060, 1061 (D. Or. 2010), the defendant brought a
petition for writ of audita querela to set aside or invalidate
a felony conviction for refusing to submit to induction
into the military on the grounds that the defendant was
a nonreligious conscientious objector. Erickson was no
longer in custody and was therefore not eligible for relief
under § 2255. Decades after his conviction, the Supreme
Court had expanded the definition of and the requirements
for conscientious objector status, creating a defense to
the crime defendant had been charged with. Id. at 1064.
With this newfound defense creating a legal defect in the
underlying conviction, the court held that the defendant
was entitled to a writ of audita querela and vacated his
conviction. Id. Shin, however, has not made an equivalent
showing justifying the issuance of the writ on the present
record.
“Even assuming the continued vitality of audita
querela, courts have ruled that it is only available where

57a
Appendix B
there is a legal objection to a judgment which has arisen
subsequent to that judgment.” Fischer, 2014 U.S. Dist.
LEXIS 153372, 2014 WL 5473586, at *4. See Doe, 120 F.3d
at 204 (holding that “a writ of audita querela, if it survives
at all, is available only if a defendant has a legal defense
or discharge to the underlying judgment”).
1.

Shin Does Not Establish That He Is
Entitled to Relief Under a Writ of Audita
Querela.

In his Verified Petition, Shin does not allege a
postconviction legal defect, instead arguing that the writ
provides relief when an evidentiary matter arising after
the conviction has rendered the conviction unfair. Shin
is making an equitable, rather than a legal, claim. He is
arguing that even if the prosecuting authorities did not
withhold exculpatory evidence, later statements by Choy,
Hokama, and Sekiguchi are “facts discovered after the
judgment was rendered” that render his conviction unfair.
Shin provides no authority indicating that the scope of the
writ of audita querela extends to such a circumstance.
This court is cognizant that the writ of audita querela
is a writ of last resort only available, if at all, when all
other post-conviction remedies have been exhausted.
See United States v. Valdez-Pacheco, 237 F.3d 1077, 1080
(9th Cir. 2001); see also United States v. Baptista, No. CR
10-00050 PJH, 2013 U.S. Dist. LEXIS 109890, 2013 WL
4014965, at *3 (N.D. Cal. Aug. 5, 2013). In this regard, a
petitioner may not challenge his conviction through the
writ on grounds that are cognizable under another form
of post-conviction relief.

58a
Appendix B
Shin’s verified petition for writ of audita querela
substantively presents a claim that new evidence has
arisen that would support his defense at trial. See ECF
No. 91, PageID # 304. This court recognizes that the
new evidence Shin identifies was not available to him
until long after he completed serving his sentence. While
Shin’s assertion of new evidence is akin to what might be
asserted under Rule 33 of the Federal Rules of Criminal
Procedure in a motion for a new trial based upon newly
discovered evidence, Shin had no remedy under Rule 33
because Rule 33 is inapplicable when a defendant has pled
guilty and, in any event, requires such a motion to be filed
within three years of final judgment. See United States
v. Collins, 898 F.2d 103, 104 (9th Cir. 1990) (per curiam)
(“When the defendant has pled guilty, as here, no trial has
occurred and the Rule 33 remedy is unavailable.”); see also
United States v. Graciani, 61 F.3d 70, 78 (1st Cir. 1995)
(“A defendant who enters a guilty plea cannot thereafter
use Rule 33 as a wedge to undo his acknowledgement that
he committed the offense.”).
But the unavailability of other relief does not
necessarily give rise to a right to a writ of audita querela.
In Valdez-Pacheco, the petitioner attempted to use the
writ of audita querela because a § 2255 habeas motion
was precluded by the Antiterrorism and Effective Death
Penalty Act of 1996. 237 F.3d at 1078-79. The Ninth Circuit
affirmed the dismissal of Valdez’s petition, explaining:
[W]e reject Valdez’s contention that audita
querela is available in his case due to the fact
that he is precluded from raising his claims

59a
Appendix B
in a § 2255 motion by those provisions of the
Antiterrorism and Effective Death Penalty Act
of 1996, Pub. L. 104-132, tit. I, § 105, 110 Stat.
1214, 1220 (AEDPA) (codified in relevant part
at 28 U.S.C. §§ 2255 and 2244), that limit the
rights of a prisoner to file a second or successive
motion. A prisoner may not circumvent valid
congressional limitations on collateral attacks
by asserting that those very limitations create a
gap in the postconviction remedies that must be
filled by the common law writs. See Kimberlin,
675 F.2d at 869; see also In re Davenport, 147
F.3d 605, 608 (7th Cir. 1998) (concluding that,
even if the limitations of AEDPA foreclosed the
use of 28 U.S.C. §§ 2241 and 2255 by federal
prisoners, “it would be senseless to suppose that
Congress permitted them to pass through the
closed door [by way of the All Writs Act] simply
by changing the number 2241 to 1651 on their
motions”); cf. Moore v. Reno, 185 F.3d 1054,
1055 (9th Cir. 1999) (per curiam) (concluding
that § 2255 is not inadequate or ineffective
merely because a particular prisoner’s § 2255
motion is procedurally barred), cert. denied,
528 U.S. 1178, 120 S. Ct. 1214, 145 L. Ed. 2d
1115 (2000).
Valdez-Pacheco, 237 F.3d at 1080 (footnotes omitted). In
short, a writ of audita querela is not necessarily available
whenever new evidence is discovered and other remedies
are unavailable. The unavailability of other remedies is a
necessary condition in the audita querela context, but it

60a
Appendix B
is not, on its own, sufficient to support the issuance of the
extraordinary writ.
Here, Shin tries to bolster his plea for relief with the
contention that the law has recently changed. Shin does
not dispute that, at least at the time he pled guilty, the
materiality standard was based on an objective standard.
See ECF No. 135, PageID # 747. Instead, Shin clarifies
that he now has a legal objection to the judgment, which
he claims has recently arisen through Escobar. See id.
Specifically, Shin claims and makes an offer of proof that
the inflated quotes were immaterial, given how Choy or
Hokama would have allegedly proceeded with the contract
in the face of knowledge that subcontractor quotes were
false. See id., PageID #s 746-49.
As explained above, Shin misreads Escobar and
Lindsey II. Escobar does not alter the applicable objective
materiality standard. Rather, Escobar clarifies what
types of evidence may be relevant in proving materiality
depending on the facts of a particular case. Lindsey
II clearly emphasizes that materiality continues to be
evaluated under an objective standard and applies that
standard in the wire fraud context.
Nor does United States ex rel. Kelly v. Serco, Inc., 846
F.3d 325 (9th Cir. 2017), which Shin also cites, help him.
Kelly involved a qui tam action under the False Claims
Act. Shin argues that Kelly applied Escobar’s purported
subjective materiality standard, which Shin contends also
applies to Shin’s case. Kelly discusses Escobar and notes
that under Escobar what the Government “regularly”

61a
Appendix B
does is relevant to materiality. See id. at 334. While Kelly
looks at what types of evidence would support a finding of
materiality in the context of the False Claims Act, Kelly
nowhere indicates that a subjective standard applies. See
id. Similarly, Shin’s expectation, see ECF No. 135, PageID
# 747; ECF No. 152, PageID #s 847-50, that United States
v. Green, No. 15-10554, 698 Fed. Appx. 879, 2017 U.S. App.
LEXIS 11125 (9th Cir.) (oral argument held on June 14,
2017), will somehow help him is misplaced. The threejudge panel that decides Green will be bound not only by
Escobar, but also by Lindsey II. Only an en banc Ninth
Circuit or the Supreme Court can overrule Lindsey II.
Shin’s focus on Hokama’s statements reflects Shin’s
mistaken belief that a subjective standard applies to the
materiality analysis. In fact, Shin himself concedes that
he “was almost certain to be convicted at a jury trial”
under the objective materiality standard, which is why,
he claims, he “had no choice but to plead guilty” at the
time. See ECF No. 135, PageID # 751. In seeking a writ
of audita querela, Shin misreads Escobar and Lindsey II.
Shin is not entitled to a writ of audita querela on the basis
of that misreading.
2.

Shin Is Not Entitled to Further Discovery
in Support of His Request for a Writ of
Audita Querela.

Notwithstanding the concerns about Shin’s right
to a writ of audita querela and his inability to establish
that he is entitled to relief under that writ, this court
recognizes that it left pending Shin’s request to depose

62a
Appendix B
Choy and Ching in support of a writ of audita querela.
This court previously invited Shin to provide further
argument and legal support regarding the appropriate
discovery standard for the writ of audita querela, as well
as an explanation as to how the discovery he seeks would
entitle him to relief under this writ, if Shin still believed
he was entitled to discovery in relation to his request for
a writ of audita querela. See ECF No. 126, PageID # 687.
Shin’s supplemental memoranda provide no authority
relating to the appropriate discovery standard and do
not specifically address how any discovery matter might
entitle him to a writ of audita querela.
While Shin argues that Ching’s credibility is highly
questionable, see ECF No. 135, PageID # 752, this court
is not able to discern how Ching’s credibility is relevant
to Shin’s audita querela petition. An objective materiality
standard applies. Even if, as Shin argues, a subjective
materiality standard applied, it would not help with
respect to Ching. The record reflects that Ching did not
know Shin had lied prior to being informed of that by the
FBI. See ECF No. 100-3, PageID # 431. It is thus difficult
to see how Ching’s attitude toward Shin’s lies might help
Shin.
Shin’s request to depose Choy and Ching is denied.
Shin has not demonstrated that he is entitled to discovery
or any further hearing in relation to his request for a writ
of audita querela.

63a
Appendix B
IV. CONCLUSION.
This court denies Shin’s petition for a writ of coram
nobis or alternatively for a writ of audita querela. Shin’s
motion to amend his petition is also denied.
Shin’s request for an evidentiary hearing and further
discovery is denied. This court directs the Clerk of Court
to enter judgment against Shin and to close Civil No. 1500377.
IT IS SO ORDERED.
DATED: Honolulu, Hawaii, June 28, 2017.
/s/ Susan Oki Mollway
Susan Oki Mollway
United States District Judge

64a
AppendixOF
C REHEARING OF
APPENDIX C — DENIAL
THE UNITED STATES COURT OF APPEALS FOR
THE NINTH CIRCUIT, FILED OCTOBER 3, 2019
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 17-16460
PATRICK SHIN,
Petitioner-Appellant,
v.
UNITED STATES OF AMERICA,
Respondent-Appellee.
D.C. No. 1:15-cv-00377-SOM-RLP
District of Hawaii, Honolulu
ORDER
Before: WARDLAW, BERZON, and RAWLINSON,
Circuit Judges.
The panel has voted to deny the Petition for Rehearing.
The full court has been advised of the Petition
for Rehearing En Banc, and no judge of the court has
requested a vote.

65a
Appendix C
Appellant’s Petition for Panel Rehearing and
Rehearing En Banc, filed September 6, 2019, is DENIED.

